<html>
<title> - [H.A.S.C. No. 112-48]RECENT DEVELOPMENTS IN AFGHANISTAN AND THE PROPOSED DRAWDOWN OF U.S. FORCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-48]

 
          RECENT DEVELOPMENTS IN AFGHANISTAN AND THE PROPOSED
                        DRAWDOWN OF U.S. FORCES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 23, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
67-396                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Ben Runkle, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, June 23, 2011, Recent Developments in Afghanistan and 
  the Proposed Drawdown of U.S. Forces...........................     1

Appendix:

Thursday, June 23, 2011..........................................    49
                              ----------                              

                        THURSDAY, JUNE 23, 2011
 RECENT DEVELOPMENTS IN AFGHANISTAN AND THE PROPOSED DRAWDOWN OF U.S. 
                                 FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     6
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....     4

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele.......................................    61
    McKeon, Hon. Howard P. ``Buck''..............................    53
    Mullen, ADM Michael G........................................    57
    Smith, Hon. Adam.............................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................    69
    Ms. Sanchez..................................................    69
    Mr. Scott....................................................    69

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................    73
 RECENT DEVELOPMENTS IN AFGHANISTAN AND THE PROPOSED DRAWDOWN OF U.S. 
                                 FORCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, June 23, 2011.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning.
    The House Armed Services Committee meets today to receive 
testimony on the President's decision to withdraw 10,000 U.S. 
troops from Afghanistan by the end of the year and the 
remaining 23,000 surge forces by next summer.
    My position on the war effort has remained consistent: 
Afghanistan's stability is vital to our national security. Any 
removal of forces should be based on conditions on the ground 
and consistent with the advice of our senior military leaders. 
Based on the President's speech last night, it is not clear to 
me that his decision was based on either.
    At West Point, in 2009, the President committed to a 
comprehensive counterinsurgency strategy in Afghanistan by 
surging 33,000 troops. Every witness before this committee has 
testified that this strategy is beginning to bear fruit by 
seizing the momentum from the Taliban.
    Many Members have been to Afghanistan and seen this 
progress for themselves. Districts that were once Taliban 
strongholds are now being contested, and once-contentious 
regions are being handed over to Afghan security forces. The 
Afghan National Army and Police [ANA and ANP] are growing in 
number and beginning to develop the capabilities to secure 
their country. These gains are significant. We should guard 
them jealously.
    I am deeply concerned, therefore, about the aggressive 
troop withdrawals proposed by President Obama. The President's 
decision could jeopardize the hard-won gains our troops and 
allies have made over the past 18 months and, potentially, the 
safety of the remaining forces. This announcement also puts at 
risk a negotiated settlement with reconcilable elements of the 
Taliban, who will now believe they can wait out the departure 
of U.S. forces and return to their strongholds.
    Today, I hope to hear more about the details underpinning 
the President's plan; that we have allowed enough time to 
achieve success; that this drawdown is a military, not a 
political, consideration; and that it does not put our 
remaining forces at risk.
    I am interested not only in the number of forces the 
President plans to redeploy, but the location and composition 
of those forces. I am concerned that we will withdraw combat 
forces before they are able to cement recent gains and that 
areas which have been economy-of-force missions thus far will 
now never witness similar progress.
    With the Taliban stumbling, we need a strategy designed to 
knock the enemy to the mat, not give them a breather. I wish I 
had heard the President forcefully renew his commitment to 
winning in Afghanistan. We need our Commander in Chief to 
remind the American people why this fight must be won and to 
reassure our military service members and their families that 
their sacrifices are not in vain.
    Instead, I heard a campaign speech, short on details and 
confusing multiple theaters of operation that have little to do 
with a plan to succeed in Afghanistan. I look forward to 
hearing more about how this plan will advance our shared 
national security interests.
    I would yield now to our ranking member, Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 53.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I thank our witnesses for being here this morning to 
further explain the President's policy in Afghanistan.
    It is a very, very difficult set of choices that confront 
our country. I think everyone agrees on two broad points: One, 
we want our troops home as soon as possible. The cost and 
finances but, more importantly, in terms of lives and those 
injured is enormous. And we are weary of the war, without 
question, and we want our troops to come home as soon as 
possible.
    But the second thing that we want is we want to make sure 
that Afghanistan does not descend back into chaos, as it did in 
the late 1980s and early 1990s. We understand the threat to our 
national security that comes from an Afghanistan that is in 
chaos, the safe havens that will become available to Al Qaeda 
and Taliban and other allies that clearly threaten us.
    The question, the challenge that our two witnesses before 
us today and the President and others face is, how do you 
balance those two things? And I think the President has struck 
a very, very reasonable balance in this plan.
    It is important to point out that, even with the drawdown 
that is announced, we will have vastly more troops in 
Afghanistan at the end of that drawdown late next year than we 
had when President Obama took office. Nearly twice as many U.S. 
troops will be there. It is a relatively modest drawdown over 
the next year and a half.
    And the other point that I hope folks will understand: Yes, 
there is a risk in us leaving, but that will always be the 
case. If we had 150,000 troops there and kept them for 10 
years, 10 years from now when we decide to draw them down, 
there would be a risk. This is not a historically stable part 
of the world. That risk will always be there.
    But what fails to be understood and what I applaud the 
President for emphasizing is the risk involved in staying too 
long, and not just in terms of the cost that we will bear as a 
country and certainly the cost that our men and women serving 
in uniform will bear, but to the very security of Afghanistan 
itself.
    On a daily basis, we hear complaints from the Afghan people 
about our military presence, about civilian deaths, about the 
simple fact of having 100,000 or, add the NATO [North Atlantic 
Treaty Organization] folks in there, 150,000 U.S. troops in 
your country. It is not a pleasant experience. It doesn't make 
you want to support your government, to know that they are 
reliant on 150,000 foreign troops and, in the case of a Muslim 
country particularly, 150,000 western troops in your country. 
That, too, has a risk attached to it.
    So you have to strike a balance. If we were to say to the 
Afghan people tomorrow, ``We are just going to stay here for as 
long as we feel like it,'' that, too, would undermine our 
national security interests. A balance must be struck. And I 
think in the President's speech last night he struck that 
balance. If I have a concern, it is that we may be staying 
there too long into next year.
    So I can certainly understand why our two witnesses and the 
President and all those who put together this decision have a 
difficult balance to strike. And I, too, look forward to 
hearing from our witnesses about how that plan is going to play 
out over the course of the next year and a half and beyond, 
because there is no question that Afghanistan and Pakistan are 
central to our national security interests. There is also no 
question, I think we all wish they weren't. It is a very, very 
difficult part of the world.
    But we have to manage a plan there to try to protect our 
national security interests. You know, I applaud the President 
for taking steps in that direction. And I look forward to the 
testimony from our witnesses that will further elaborate on 
those plans.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 55.]
    The Chairman. Thank you.
    I want to thank our witnesses for being here today. I know 
this is very short notice, but it is very timely, and I 
appreciate you making the extraordinary effort to get 
statements out and to be here today.
    We are fortunate to have with us the Honorable Michele 
Flournoy, the Under Secretary of Defense for Policy; and 
Admiral Michael Mullen, the Chairman of the Joint Chiefs of 
Staff [JCS].
    We were talking the other day, and he made the comment that 
people kind of figure--have made comments to him that, ``Well, 
you know, you are just going to coast through the next so many 
months,'' and he says, ``Yes, like I have coasted through the 
last 4 months.''
    People, when they were preparing their New Year's 
resolutions, probably weren't thinking about Egypt and Yemen 
and Libya and all of the different things that are happening. 
So, again, I want to thank you for your many years of service 
and for making the extraordinary effort to be with us here 
today.
    And we will listen now to Ms. Flournoy. Or who----
    Admiral Mullen. Yeah, I think we----
    The Chairman. Excuse me. Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Good morning, sir.
    Mr. Chairman and Representative Smith, distinguished 
members of this committee, thank you for the opportunity to 
discuss with you the President's decisions regarding the 
beginning of our drawdown in Afghanistan and our continued 
transfer of responsibilities to Afghan National Security Forces 
[ANSF].
    Let me start by saying that I support the President's 
decisions, as do Generals Mattis and Petraeus. We were given 
voice in this process, we offered our views freely and without 
hesitation, and they were heard. As has been the case 
throughout the development and execution of the Afghanistan-
Pakistan strategy, the Commander in Chief presided over an 
inclusive and comprehensive discussion about what to do next, 
and I am grateful for that.
    And I can tell you that foremost on everyone's mind 
throughout the discussion was preserving the success our troops 
and their civilian counterparts have achieved thus far. We 
believed back when the strategy was established in December of 
2009 that it would be about now, this summer, before we could 
determine whether or not we had it right, whether the resources 
were enough and the counterinsurgency focus was appropriate. 
Well, now we know. We did have it right. The strategy is 
working.
    Al Qaeda is on their heels, and the Taliban's momentum in 
the south has been checked. We have made extraordinary progress 
against the mission we have been assigned and are, therefore, 
now in a position to begin a responsible transition out of 
Afghanistan.
    We will, as the President has ordered, withdraw 10,000 
American troops by the end of this year and complete the 
withdrawal of the remaining 23,000 surge troops by the end of 
next summer. General Petraeus and his successor will be given 
the flexibility inside these deadlines to determine the pace of 
this withdrawal and the rearrangement of remaining forces 
inside the country.
    There is no jumping ship here; quite the contrary. We will 
have at our disposal the great bulk of the surge forces 
throughout this and most of the next fighting season. And I am 
comfortable that conditions on the ground will dominate, as 
they have dominated, future decisions about our force posture 
in Afghanistan.
    Let me be candid, however. No commander ever wants to 
sacrifice fighting power in the middle of a war, and no 
decision to demand that sacrifice is ever without risk. This is 
particularly true in a counterinsurgency, where success is 
achieved not solely by technological prowess or conventional 
superiority but by the wit and the wisdom of our people as they 
pursue terrorists and engage the local populace on a daily 
basis. In a counterinsurgency, firepower is manpower.
    I do not intend to discuss the specifics of the private 
advice I rendered with respect to these decisions. As I said, I 
support them.
    What I can tell you is the President's decisions are more 
aggressive and incur more risk than I was originally prepared 
to accept. More force for more time is, without doubt, the 
safer course. But that does not necessarily make it the best 
course. Only the President, in the end, can really determine 
the acceptable level of risk we must take. I believe he has 
done so.
    The truth is, we would have run other kinds of risks by 
keeping more forces in Afghanistan longer. We would have made 
it easier for the Karzai administration to increase their 
dependency on us. We would have denied the Afghan security 
forces, who have grown in capability, opportunities to further 
exercise that capability and to lead. We would have signaled to 
the enemy and to our regional partners that the Taliban still 
possess strength enough to warrant the full measure of our 
presence; they do not. We would have also continued to limit 
our own freedom of action there and in other places around the 
world, globally. The President's decisions allow us to reset 
our forces more quickly, as well as to reduce the not-
inconsiderable cost of deploying those forces.
    In sum, we have earned this opportunity. Though not without 
risk, it is also not without its rewards. And so we will take 
that risk and we will reap those rewards. The war in 
Afghanistan will enter a new phase, and we will continue to 
fight it. And we will continue to need the assistance, 
persistence, and expertise of our allies and partners.
    The President said it well last night: Huge challenges 
remain. This is the beginning, not the end, of our effort to 
wind down this war. No one in uniform is under any illusion 
that there will not be more violence, more casualties, more 
struggles, or more challenges as we continue to accomplish the 
mission there.
    We know that the progress we have made, though 
considerable, can still be reversed without our constant 
leadership, the contributions of our partners and regional 
nations, and a more concerted effort by the Afghan Government 
to address corruption in their ranks and deliver basic goods 
and services to their people.
    But the strategy remains the right one. This transition and 
the concurrent focus on developing the Afghan National Security 
Forces was always a part of that strategy. In fact, if you 
consider the continued growth of the ANSF, the Taliban could 
well face more combined force, in terms of manpower, in 2012 
than they did this year, and capable enough if the ANSF has 
strong leadership and continued outside support.
    Going forward, we also know we need to support an Afghan 
political process that includes reconciliation with the Taliban 
who break with Al Qaeda, renounce violence, and accept the 
Afghan Constitution. And we know we need to continue building a 
strategic partnership with Afghanistan, one based not on 
military footprint but on mutual friendship.
    Our true presence will diminish, as it should, but the 
partnership between our two nations will and must endure. That 
is ultimately the way we win in Afghanistan, not by how much we 
do, but by how much they do for themselves and for their 
country; not by how much our respective soldiers fight, but by 
how much our statesmen lead.
    Thank you, Mr. Chairman, and I stand ready to take your 
questions.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 57.]
    The Chairman. Thank you very much.
    Ms. Flournoy.

STATEMENT OF HON. MICHELE FLOURNOY, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Mr. Chairman, Ranking Member Smith, 
distinguished members of the committee, thank you for inviting 
us both here today to update you on Afghanistan.
    As you all know, in his December 2009 speech at West Point, 
President Obama announced a surge of 30,000 U.S. troops, with 
the clear objectives of seizing the initiative from the Taliban 
and reversing the momentum of the campaign on the ground. At 
that time, the President also specified that the surge would 
not be open-ended and that he would begin to reduce U.S. surge 
forces beginning in July 2011.
    Last night, true to his word, President Obama announced to 
the American people that the United States is beginning a 
deliberate, responsible drawdown of our surge forces in 
Afghanistan. An initial drawdown of 10,000 troops will occur 
over the course of this year, with a further drawdown of the 
remainder of the surge by the end of summer 2012. Secretary 
Gates believes that this decision provides our commanders with 
the right mix of flexibility, resources, and time to continue 
building on our significant progress on the ground.
    Even after the recovery of the surge forces, totaling about 
33,000 troops, we will still have 68,000 U.S. service members 
in Afghanistan. That is more than twice the number as when 
President Obama took office. Clearly, this is not a rush to the 
exits that will jeopardize our security gains.
    More importantly, at the end of summer 2012, when all of 
the surge forces are out, there will actually be more Afghan 
and coalition forces in the fight than there are today. That is 
because, by the time we complete our drawdown, we anticipate 
that the Afghan National Security Forces will have added 
another 55,000-plus members, not including the Afghan local 
police. The growth in the quantity and the quality of the ANSF, 
which has fielded more than 100,000 additional forces over the 
past 18 months, is one of the critical conditions that is 
enabling the drawdown of the U.S. surge forces.
    More broadly, as the admiral said, our strategy in 
Afghanistan is working as designed. The momentum has shifted to 
the coalition and Afghan forces, and, together, we have 
degraded the Taliban's capability and achieved significant 
security gains, especially in the Taliban's heartland in the 
south.
    These security gains are enabling key political initiatives 
to make progress. We have begun a transition process that will 
ultimately put Afghans in the lead for security nationwide by 
2014. We are beginning to see reintegration and reconciliation 
processes gain traction. And we are in discussions with the 
Afghans about a strategic partnership that will signal our 
enduring commitment to the Afghan people and to regional peace 
and stability. Together, these initiatives promise a future 
Afghanistan that is stable, peaceful, and secure.
    So I want to emphasize that this announcement in no way 
marks a change in American policy or strategy in Afghanistan. 
It is wholly consistent with the goals that President Obama and 
our allies agreed to at Lisbon, the NATO summit at Lisbon last 
year. There, we committed to the gradual transfer of security 
leadership to the Afghans by the end of 2014 and to an enduring 
commitment to a security partnership with Afghanistan to ensure 
that we never again repeat the mistake of simply abandoning 
that nation to its fate and risking the re-establishment of Al 
Qaeda safe havens there.
    I want to emphasize that, although our progress in 
Afghanistan has certainly been substantial and our strategy is 
on track, there are significant challenges that remain. In the 
months ahead, we will be confronted by an enemy that will try 
to regain the momentum and the territory that it has lost to 
Afghan and coalition forces.
    However, that enemy will also face an Afghan population 
that is increasingly experiencing the benefits of security and 
self-governance. And those benefits will only become clearer as 
we begin the transition to full Afghan security responsibility 
in selected areas. Those communities will provide us with 
useful lessons on security and governance, as well as a 
potential model for other parts of the country.
    Finally, let me emphasize how crucial it is for us to 
maintain the continuing role of our coalition partners in 
Afghanistan: 48 countries with some 47,000 troops along our 
side. These partner nations have made significant contributions 
and significant sacrifices. Even as we recognize the progress 
that we and our partners have made toward our shared goal of 
destroying terrorist safe havens, we must sustain this 
partnership to ensure that we ultimately leave behind an 
Afghanistan that will never again serve as a base for terrorist 
attacks against the United States or our allies.
    Thank you, Mr. Chairman, Mr. Smith, and distinguished 
members of the committee. That concludes my remarks, and we 
look forward to your questions.
    [The prepared statement of Secretary Flournoy can be found 
in the Appendix on page 61.]
    The Chairman. Thank you very much.
    You know, there is not a single Member of Congress who does 
not want our troops to come home as soon as possible. 
Personally, I believe the objective of transitioning to an 
Afghan lead on security within 3 years is both a desirable and 
an achievable objective.
    The last visit I made, compared to the one before, I saw 
significant progress. Areas that we weren't able to go into 
before, we were able to go and walk down the streets in Marjah 
without body armor. We opened a school while we were there. I 
think we have made significant gains. This will enable, as we 
transition, it will enable our forces to come home.
    However, I am concerned that the drawdown plan announced by 
the President last night will significantly undermine our 
ability to responsibly enact this transition. I am concerned 
with the gains we have made in the south. We have been holding, 
as I understand, more of a holding pattern in the north and the 
east. And the plan was, I thought, to move more of those 
forces, as we solidified the gains in the south, to move them 
to the north and the east. And I am concerned that this 
drawdown may not let us do all that we could in that area.
    Admiral Mullen, based on your best professional judgment 
and that of your commanders, how many of the forces to be drawn 
down will be combat forces?
    And I will ask these, and you can answer them.
    Is the President's plan to redeploy all 33,000 surge forces 
by next summer aggressive? What regional commands will these 
forces be drawn from? Does it put our recent security gains at 
risk? And does it risk the security and safety of our remaining 
forces?
    Admiral Mullen. Let me talk about, broadly, the approach.
    Clearly, as you have said, Chairman, we have made 
significant gains over the course of the last 18 months and, 
really, since the President made the decision to put the surge 
forces in, and particularly in the south. And we are in the 
hold phase now and, in fact, moving into a phase where the 
Afghans have the lead.
    So that was where we were, with respect to, literally, the 
most recent discussions and meetings with respect to what to do 
next, and we understand that. The south consciously has been 
the main effort. And it is that focus that has allowed us to 
achieve the gains we had.
    Not insignificant when we debated this in 2009 was the very 
small chance that everybody--an awful lot of people gave us in 
terms of building the Afghan National Security Forces, because 
of the illiteracy challenge, because we didn't have a training 
infrastructure, because we didn't have noncommissioned officer 
[NCO] leaders, et cetera. The extraordinary progress that has 
been made with respect to setting up that infrastructure and 
fielding forces--Ms. Flournoy said over 100,000. I think it is 
about 120,000 forces that have been trained and fielded. Some 
35,000 are in training literally this week. By the end of next 
year, we will have Afghan units that are manned at the NCO 
level to the 85 percent level across the board. So, 
extraordinary changes with respect to that.
    And when we talk about whether gains are reversible and 
fragile, these gains can only be made irreversible by the 
Afghan National Security Forces and the Afghan people, in the 
end. So that is where this is headed, and we have made great 
progress with respect to that.
    The secondary effort was the east. And I wouldn't describe 
it over the course of the last year as a holding action at all. 
And, in fact, what David Petraeus and others have done out 
there is reconfigure forces to deal with the challenges of that 
very rugged territory. And, in fact, it is not to take a lot 
of--the plan is not to take a lot of our forces and put them in 
the east. But it is, as Dave Petraeus says, it provides the jet 
stream between the safe havens in Pakistan for the Haqqani 
network, in particular, and getting to Kabul.
    And Kabul, where roughly 20 percent of the Afghan 
population has been secured, Afghans are in the lead. And, 
obviously, you want to keep it that way, with respect to the 
capital of that country.
    So what General Petraeus has done over the course of the 
last year is reconfigure those forces, look at an adjustment in 
literally strategy on the ground, if you will, to layer the 
forces in a way so that that jet stream is really cut off and 
it is made much more difficult on the enemy.
    And there are layered forces from the border right through 
to Kabul which are now doing that. I am actually more confident 
in what we have with respect to the east than we had a year ago 
because I think we understand it. That doesn't mean it is not 
hugely challenging. It clearly is. But there was never an 
intent to do exactly in the east what we have done in the south 
with respect to our forces. And I think that all lies within 
this overall strategic approach.
    All of us knew, going into this, that the surge forces were 
going to come out next year at some point in time. So the 
discussion about exactly when is obviously relevant but, in 
terms of numbers of months and getting through the fighting 
season, the end of September is almost all the way through the 
fighting season. There will be those that argue October is a 
pretty tough month. It is, but it is winding down in October.
    So what we have is the vast majority of our forces for the 
next two fighting seasons, not unlike what I said in 2009. We 
put 10,000 Marines in Helmand in 2009. My position then was, if 
we didn't have a good handle on what was going on in 18 to 24 
months based on what we were doing from a strategy standpoint 
as well as what has happened on the ground, then we would 
probably have to change our strategy.
    I believe these decisions and our strategy gives us time to 
understand how good the Afghan security forces are going to be; 
how well the government actually stands up; how does President 
Karzai get at corruption; how well are we dealing with the 
risks associated with safe havens; and is there political space 
that this buys, where you can start reconciliation, move it 
from where it is right now in its beginning stages, where you 
can continue reintegration. And we have a couple thousand 
former Afghan Taliban--or, former Taliban who are now being 
reintegrated.
    So, in essence, in ways, from my perspective, we are 
talking about the margins here, after a lot of progress, a good 
strategy, and continued focus in that direction. I think I 
would be remiss if I said publicly where these forces are going 
to come from, because I am not anxious to give up, you know, 
anything to the enemy in that regard. I would be happy to, you 
know, go through that with you.
    But, most importantly, I think where the forces come from 
next year will depend on what happens this year. And that will 
be conditions-based, inside, obviously, the deadline set. And 
that General Petraeus and General Rodriguez and, obviously, 
their reliefs will make these determinations, given the mission 
that they have been given to carry out and, obviously, the 
direction from the President.
    The Chairman. Thank you.
    Would you term the redeployment for this summer 
``aggressive''?
    Admiral Mullen. Actually, not the words--as you know, we 
all have to choose our words very carefully. You used 
``significant'' earlier.
    I think it is well within reason for us to be able to do 
this. As I said in my opening statement, it was more aggressive 
and it has more risk than, you know, I was originally prepared 
to--than I recommended. That said, in totality, it is within 
the ability to sustain the mission, focus on the objectives, 
and execute.
    The Chairman. I didn't mean, when I asked where the forces 
would be withdrawn, to pinpoint locations.
    I was referring to--and I am glad that you answered that 
the way you did. But what I was talking about, will they be 
coming from the fighting forces?
    Admiral Mullen. You know, ``combat forces'' is a term that 
has been broadened dramatically in these wars. I have been 
asked as recently as a couple days ago about, will they be the 
enablers? Enablers are every bit the combat force anybody else 
is in the classic sense. And so, in ways, are our support 
forces, because the threat is a 360-degree threat oftentimes.
    So I can't actually tell you, Chairman, where they are 
going to come from. I think, clearly, a commander on the ground 
is going to keep as much fighting power, whatever that means, 
given the situation, as he possibly can for as long as he can. 
And I am sure that General Petraeus and, if confirmed, General 
Allen will proceed in that direction. But I just don't have the 
specifics yet.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    You had mentioned in your opening remarks about the number 
of Afghan security forces that have been trained over the 
course of the last--I guess it is 18 months now since the surge 
began. I have heard the statistic, 100,000 in the Afghan Army. 
I know we also have made significant improvements in the police 
force.
    I think one of the logical things that occurs to us, if we 
have that many more Afghan troops available, that much more 
Afghan security, how does that figure in and help us with this 
drawdown? How capable are they? How reliable are they? How can 
we move them in to take over some of the responsibilities?
    Because, I mean, if we are adding 100,000 Afghan troops--I 
don't know what the figure is on the police force--and this 
year, next 6 months, our plan is to draw down a total of 10,000 
U.S. forces, it seems to me we are still in pretty good shape.
    And one final little piece of that. The other NATO forces 
are going to be keeping roughly the same amount for the rest of 
this year, is my understanding. Can you confirm that and then 
comment on how the Afghan forces add into the mix?
    Admiral Mullen. Well, let me go to the second question 
first.
    I mean, we were in both consultation and contact with our 
NATO allies over time. And they were obviously focused very 
much on what the United States was going to do, and any 
decisions that they were going to make were clearly going to be 
informed by this decision that the President has made.
    That said--and I think it is worthy of focusing on--part of 
what the President focused on last night was the Lisbon summit, 
the whole issue of transition, the number of heads of state and 
countries that are committed to this transition in 2014, which 
we think is about right--that is certainly the intent--and 
everything coming into this, as far as I know, Mr. Smith, I 
mean, the allies were very much with us.
    They have specific decisions they have to make, and I don't 
know what--I don't know what those are. Certainly, I think as 
Secretary Flournoy pointed out, it is important for them to 
stay in this. Not lost on me over the totality of this is, 48 
countries have committed combat forces here over time, which is 
a huge statement specifically in and of itself.
    With respect to the ANSF, I think the number--and I can get 
it if it is wrong--for the army and the police is about 128,000 
between the two. And, in fact, you know, 2 years ago, it was 
illiteracy, you know, it was essentially no training 
infrastructure. There was nothing that was set up except you 
recruited somebody on a Friday, and Monday they were on the 
street in a unit that wasn't well-led, didn't have senior 
leadership, senior or midgrade leadership, and hadn't had any 
training.
    We have now set up 12--what we call 12 branch schools that 
have been set up. So this 35,000 that I mention--and the number 
has been between 25,000 and 35,000 in training for months. So 
it was a matter of setting up the infrastructure, many 
countries contributing to trainers. And we are about where we 
need to be with respect to trainers from all of these 
countries.
    So there is now a system of training, which has produced a 
much more capable individual and what we see as a much more 
capable fighting force in the field. They are leading, in some 
cases, now. We are partnering with them throughout Afghanistan. 
And, over the course of the next year, that will increase 
exponentially.
    I am not naive to think--you know, they have some 
challenges. They haven't done this before. We don't expect it 
to be magical. But in terms of the progress we have made over 
the course of the last 18 months or so, it really has been 
enormous. And we expect to continue on that pace and actually 
have it pick up. They will get better and be more and more in 
the lead.
    Mr. Smith. Yeah, the improvement in training over the 
course of the last 18 months I don't think can be overstated. 
Because, as you said, it is one thing to say we are going to 
pick someone up, turn them into a soldier, and send them out 
the door. It is another thing to actually have a trained force. 
And the surge wasn't just in our troops; it was in the totality 
of the effort--improving the training and also improving the 
governance.
    The last time I was there, a few months back, you know, I 
have never seen so much activity on the State Department, 
Agriculture, Justice Department. We had USAID [U.S. Agency for 
International Development]. We had a comprehensive effort to 
improve the governance.
    And I will just conclude by saying, you know, if we put 
128,000 more Afghan security forces over the course of the last 
18 months, I don't think it is fair to say that drawing down 
10,000 U.S. troops this year and even another 23,000 next year 
significantly reduces our effort. I think, clearly, we have 
resourced this effort appropriately, and we are making 
progress.
    And I certainly appreciate your leadership on that. It was 
a very tough fight, but the improvement that all of us have 
seen over the course of the last 18 months is truly remarkable 
and to be commended.
    And, with that, I yield back.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Thank you for your service and your testimony.
    Four and a half years ago, I led a CODEL [congressional 
delegation] to China to talk about energy. I believe Mr. Larsen 
was on that CODEL with me. We were stunned when the Chinese 
began their discussion of energy by talking about post-oil. Oil 
is finite; of course there will be a post-oil world.
    With our focus of the next election, which is never more 
than 2 years away, and the next quarterly report, which is 
always less than 3 months away, I have heard none of our 
leadership mention that there will be a post-oil world. This is 
a dominant factor in the Chinese planning. So, clearly, people 
in that part of the world have a different perspective of time 
and agenda than we do.
    I am the Afghan Taliban; I am not constrained in my 
thinking about the next election, which is less than 2 years 
away, or the next quarterly report. What may seem to those 
Americans is a very long time, 3 years, to me in my planning it 
is little more than the blink of an eye. In just 3 years, they 
are going to be out of there. For the next 3 years, I am going 
to continue the fight as a diversion, but what I am really 
going to be doing is recruiting and reconstituting so that I am 
going to be ready when they are gone. I know they are working 
very hard to improve the security forces and the police. They 
are trying to make the mayor of Kabul look like the President 
of Afghanistan. But these gains are all very fragile and 
reversible. And with the forces that I am going to hold in 
reserve from this fight, they will be easily reversed when they 
are gone.
    Do you think that we have the ability--you know, what one 
sees depends upon where one sits. Do you think that we have the 
ability to see the world through the prism of the Taliban?
    Admiral Mullen. We see that world a lot more clearly than 
we used to, Mr. Bartlett, as I am sure you can appreciate, 
because of the fights and because of the sacrifices.
    We also see that world through the Afghan people's eyes, 
because we are in so many villages, subdistricts, and districts 
with them. And I just disagree that the gains are going to be 
easily reversed. In fact, I see a stream of intelligence 
routinely of the Taliban in significant disarray, at the 
leadership level, many of whom live in Pakistan, as well as in 
the field.
    Mr. Bartlett. Sir, I was just repeating what I am told by 
General Petraeus and others. And every testimony--read it in 
the Congressional Record--they sit where you are sitting, and 
they say, ``The gains are fragile and reversible.'' I was 
simply repeating that.
    Admiral Mullen. Right. I have said that, as well.
    What you also said, that they are easily reversible, I just 
disagree that that is the case. They only become irreversible 
if we get the Afghan security forces in charge of their own 
destiny. That is the goal over the course of the next 3 years. 
Four years ago, they virtually had no Afghan security forces, 
certainly no effective forces.
    That is the challenge. That is the path home. We all know 
that. And we see that through their eyes, as well as look at it 
through the Taliban's eyes.
    The Taliban had a really bad year last year. They are 
having a really bad year this year. They are going to have 
another really bad next year. It is for them to decide how long 
they want to just sit on the side. And I certainly understand 
that. That is less--as far as I am concerned, that is more than 
just a blink in the eye, even in their eyes, and they have been 
fighting this for many years. They are also tired, and I see 
that routinely.
    So I guess I come at it from a different position than how 
you see it. I certainly understand what you are saying, but we 
have just seen great progress. And there is an opportunity here 
to succeed against the objectives we have, which have been 
limited and get to a point where Afghanistan is in charge of 
their own destiny and we have a long-term relationship with 
that country that puts them in a position to be a lot more 
peaceful and stable than they have been in the last three to 
four decades.
    Mr. Bartlett. Thank you.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you both for being here this morning.
    I think, at least from my perspective--and this is after 
having a conversation with former Ambassador Khalilzad about 
the region in general and the challenges that we may face, 
given the decision that the President made.
    And we were there; I was part of the trip with the 
chairman. And one of the anecdotes that stands out in my mind 
speaks to just the comments that you are making about the 
advances that we have made that some people categorize as 
``fragile.'' But we were told about one of the soldiers that 
had been trained, was intending on being deployed, but what was 
significant about that was that his idea was, once he completed 
his term, was to go back to his village and work on the next 
generation in the context of literacy. We all know that is one 
of the big challenges that we have faced, is the rate of 
illiteracy in the general population.
    So my question is, given the decision that has now been 
made in terms of starting the drawdown, one of the expectations 
that we have is that the civilian leadership will set the 
direction and that the Afghani National Security Forces are 
going to provide the security. So my question is for both of 
you. Is the civilian leadership at a point to where they can 
provide that direction, that oversight? And how are we--where 
are we and how are we are ensuring that both evolve at the same 
time?
    Because we are also very troubled by the amount of 
corruption that exists, the control or lack of control that is 
exercised by the central government. So it seems to me that 
those are still questions out there that we need to take into 
account as we do the drawdown.
    And then the last point is, we are being told that even 
once this is accomplished, just for the ANSF, the security 
forces, it is going to take somewhere between $6 billion and $8 
billion a year to sustain them. The central government does not 
have that kind of--at least at this point, we don't have the 
expectation that they will have that kind of income. So where 
is that money coming from? How much and how long are we on the 
hook for? Either $6 billion or $8 billion or more if you take 
into account the civilian government, as well?
    Secretary Flournoy. Thank you, Congressman.
    We are certainly investing in developing Afghan governance 
and institutions as well as the ANSF.
    The greatest progress we are seeing so far has really been 
from the bottom up, starting at the local and district level, 
moving to the provinces. I think I would say that something 
like 75 percent now of the district and provincial officials 
that are in place are now merit-based appointments. These are 
capable people who are qualified to do the jobs they are doing. 
And you are seeing a dramatic change at the local level, where 
most Afghans have their most direct experience with their 
government. So that is the good news.
    I think, when you move to the national level, in terms of 
ministries that can provide basic services, an accountable 
justice system and dealing with corruption and so forth, we 
still--this is a work in progress, and there are many 
challenges that we still have to work through. But we are 
working through--we have partnerships with each of the major 
Afghan ministries, working with them to develop the capacity 
and go after corruption.
    On your question about ANSF sustainability, we share your 
concern, the President shares your concern. We are currently 
working with the Afghans to scrub our long-term model for the 
ANSF to better understand, as the insurgency comes down, what 
will the needs of that force really be, how can we bring down 
the costs, do things in a way that gets us into a more 
sustainable range in terms of what the Afghans, together with 
the international community, can support over time.
    Mr. Reyes. Thank you.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Admiral, you said in your statement that the commanders 
have flexibility inside the deadlines, which tells me there is 
no flexibility to extend the deadlines. And you also said in 
your statement that ``the President's decision was more 
aggressive and incurs more risk than I was originally prepared 
to accept.'' Interesting choice of words, ``prepared to 
accept,'' to me. But what that tells me is, your best military 
advice was something other than and less aggressive withdrawals 
than what the President announced.
    So I guess the first question that comes to my mind is, is 
there a military reason to have a mandated withdrawal in 
September rather than November or December?
    Admiral Mullen. Mr. Thornberry, what I said in my 
statement--and I will stick to that--is, I am not going to 
review my private military advice. We presented a range of 
options to the President. He has obviously chosen one based on 
his judgment, and we intend to carry that out.
    I honestly believe that within both the numbers of troops 
and timelines, given that we will have the vast majority of our 
forces through these two fighting seasons, that we are on the 
margins here in terms of having an impact. And, as I said 
earlier, there is not a commander on the ground, there is not a 
military individual in the chain of command that wouldn't want 
more, longer. That is normal. But it is not my decision; it is 
for the President to decide.
    And I would re-emphasize that inside that deadline--which 
is not flexible, I understand that--the commander on the 
ground--and the President has been very specific about this--
has all the flexibility so he can move the forces where and 
when he wants to, as long as he meets those deadlines.
    Mr. Thornberry. Well, as you referenced, there are other 
people who are concerned about the military effects of this. 
Now, as you know, there is speculation that politics plays a 
role in this timetable. I am trying to focus on the military 
aspects.
    I am looking at today's New York Times, where Michael 
O'Hanlon talks about that if the troops have to be out in 
September, they are going to spend most of the summer on the 
downsizing effort rather than, arguably, where they should be 
spending most of their time, and that it is in the fighting 
season.
    And it also quotes General Barno, who was the ground 
commander there in Afghanistan and is now affiliated with the 
Center for a New American Security, saying that the 10,000 by 
December is more than the military wanted but doable. But 
putting a September 2012 expiration tag on the rest of the 
surge raises real concerns. That is the middle of the fighting 
season.
    Admiral Mullen. Neither one of those guys are military 
guys. And I know them both. Barno commanded it years ago. And 
the focus from the perspective of the military leadership--
Rodriguez, Petraeus, others, Mattis, and myself--and how we 
both recommended and integrated that--not integrated, but had 
discussions about this decision--certainly, we were focused on 
the military piece of this.
    And, again, at the end, it increases the risk, but not 
substantially from my point of view, and that, you know, 
O'Hanlon's view that we are going to be focused on logistics is 
not, from my perspective--in a fighting season, we have to meet 
the deadline, but it is not going to divert the main effort.
    Now, that is my view. He and I can differ on that. But I 
assure you that is the view coming from the commanders, as 
well.
    Mr. Thornberry. Well, let me ask you one other thing. Some 
of my colleagues and I have just recently been there, focused 
on the village stability operations. It looks like one of the 
great successes that is spreading, but the key determinate is 
manpower. As you know, we are augmenting Special Forces with 
conventional forces now. Plans to expand them to a bunch more 
villages, but if the people aren't there, obviously that cannot 
happen.
    So does this decision put at risk what seems to be one of 
the most promising things going on in Afghanistan to allow them 
to stand up and provide for their own security?
    Admiral Mullen. I agree with that. The Afghan local police 
and the village stability operations, which have been 
enormously successful, have stood up, I think as recently as 
this week, to a level of about 6,400 Afghans who are in this 
program. And, certainly, in discussions I have had with General 
Petraeus and others, there is no intent to slow that down and 
that this decision shouldn't do that.
    Mr. Thornberry. I worry about that, but thank you.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you both for being before us.
    I have a line of questioning from three different aspects 
because I think all three of these are very important for us to 
be able to leave Afghanistan and not have to return.
    And, as you probably already know, I have been one of those 
people who have been saying, let's get out of this, because I 
can't seem to get--and you have been before us many times, and 
so has Secretary Gates and others. I haven't seemed to really 
get from any of you or from General Petraeus or the others what 
is the real end game and what it really looks like, other than 
stability and the Afghan people able to do this on their own.
    So I think that is dependent on three things: education of 
the population, because we know that it is very undereducated; 
secondly, the leadership of that country; and, third, a strong 
Afghan Army/police force, whatever you want to call it.
    So my first question is, when did we start training the 
Afghan--what year, I can't recall now, did we start training 
the Afghan Army and police? Secondly, how many have gone 
through our training or NATO's training or our allies' training 
program at this point?
    Admiral Mullen. I mean, I can speak to that, and certainly 
Secretary Flournoy, as well.
    The exact year would be hard for me to pin down, but there 
has been a training effort almost as long as we have been 
there. My own personal experience is, it was well under way, 
although under-resourced, in 2006-2007. So it has been a number 
of years.
    Ms. Sanchez. And how many would you say we have trained, 
who have gone through the training program that we have had or 
our allies have had, in total, during this time?
    Admiral Mullen. About 300,000----
    Ms. Sanchez. 300,000.
    Admiral Mullen [continuing]. 302,000, 304,000.
    Ms. Sanchez. So, currently, according to the information 
you gave that we have in front of us, we have 305,000, total, 
target end strength for this year of the ANSF.
    Admiral Mullen. Correct.
    Ms. Sanchez. So there has been--so we have trained 300,000 
and we still have 300,000? So nobody has gone away like in 
Iraq, where they walked away with arms, they walked away, they 
didn't come to the fight, they went back to their villages? You 
are saying we have 100 percent retention?
    Admiral Mullen. No, no, no, no. I am saying that we--
certainly, we have had retention problems.
    Ms. Sanchez. Okay. But I asked you how many had we trained 
during the total time.
    Admiral Mullen. Oh, I couldn't--I would have to go----
    Ms. Sanchez. Okay. I would like to get that number----
    Admiral Mullen. Sure.
    Ms. Sanchez [continuing]. When you get a chance.
    Admiral Mullen. Yes, ma'am.
    [The information referred to can be found in the Appendix 
on page 69.]
    Ms. Sanchez. Okay.
    My second question comes to the whole issue of a corrupt 
government. And I start from the standpoint that the first time 
I met President Karzai, I told him I thought he was--I was 
reading a Newsweek article that had been written that day that 
called him the mayor of Kabul, and that is about it.
    In my last visit there, his own parliamentarians said a 
type of election where he won a second term should never happen 
again in that country. Some were of his own party. So they 
don't even believe that was a good election.
    So my question to you is, what are we doing about 
leadership there? What have we done to try to cultivate 
leadership? Who are we identifying? Or are we just leaving it 
up to these corrupt people to take advantage of their own 
country, as they currently are doing?
    Secretary Flournoy. I would just say what I mentioned 
before. We have worked bottom-up to systematically work with 
the Afghans to ensure first at the district level where Afghans 
experience government most directly, then at the provincial 
level, and then at the national level that we replace corrupt 
and incompetent leadership so that the Afghans replace them.
    I think we are 75 percent of the way there at the district 
and provincial level. I think you are starting to see President 
Karzai, who is our partner in this effort----
    Ms. Sanchez. Corrupt, I might add, but go on.
    Secretary Flournoy [continuing]. Make the connection 
between corruption--the need to fight corruption to be able to 
gain and sustain legitimacy of government in the eyes of the 
people.
    And one of the things that he has begun to do, with our 
support and encouragement, is start to make those 
replacements--so, you know, for example, dismissing a number of 
officers from the ANSF who he found to be corrupt. A lot of the 
work we are doing on the police, again, historically one of the 
most corrupt institutions in the country, the revetting, 
retraining, refielding of those units with a totally different 
philosophy about what their job is, in terms of serving the 
communities that they protect.
    Those are all concrete efforts toward dealing with the 
corruption problem. That said, we certainly have a long way to 
go. And we are pressing our Afghan partners every day on this 
issue.
    Ms. Sanchez. Thank you.
    And thank you, Mr. Chairman, for the time.
    I just would like to add to the record, I think when all is 
said and done about this effort of ours, we will find that a 
corrupt government is what really brought our efforts to naught 
there.
    Thank you.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral, I would like to pick up on a line of questioning 
that Mr. Thornberry began with your statement that you made, 
both in writing and orally, where you said, ``What I can tell 
you is the President's decisions are more aggressive and incur 
more risk than I was originally prepared to accept.''
    Risk to whom?
    Admiral Mullen. Risk to the overall mission.
    Mr. Forbes. But not risk to----
    Admiral Mullen. Risk in the strategy.
    Mr. Forbes [continuing]. Our troops?
    Admiral Mullen. Certainly, it has increased--I think it has 
increased risk across the board. But it is----
    Mr. Forbes. The other thing----
    Admiral Mullen. But, Mr. Forbes, it is manageable risk. And 
we----
    Mr. Forbes. I understand.
    Admiral Mullen [continuing]. Know where we stand.
    Mr. Forbes. But, Admiral, I am taking your words that it is 
more risk. And let me ask you this question. I notice from your 
Web site that you state that you are the principal military 
advisor to the President and, as such, that you present the 
range of advice and opinions you have received, along with any 
individual comments from other members of the Joint Staff.
    What is your role when you come before us? Is it to do the 
same thing, or is it to support the decisions of the 
administration?
    Admiral Mullen. It is--I think the Web site says ``Joint 
Chiefs,'' not ``Joint Staff,'' although----
    Mr. Forbes. Joint Chiefs.
    Admiral Mullen. And it is certainly to provide my both 
assessment and advice, if you will, views, based on the 
questions that I get. It is typically----
    Mr. Forbes. Is it the same role that you have to the 
President, to give us the same type of advice?
    Admiral Mullen. No, sir, it is not exactly----
    Mr. Forbes. Okay. I looked through your testimony as you 
have appeared before both the Senate and the House during the 
administration's time. Can you tell us one time that you have, 
in any of your testimony, not supported the decision that the 
administration has made before any hearing?
    Admiral Mullen. I have worked for two Presidents, and I 
have supported those Presidents.
    Mr. Forbes. So when we come here, we know that we are going 
to basically have the support of what decision was made.
    My question, then, comes back to this: In May of this year, 
you said you think we will have a better picture of where to go 
in Afghanistan toward the end of the year. You then said on May 
30th, ``I think it is a very difficult fighting season right 
now. This is going to be a tough year.'' Then in June, I think 
you said, ``We shouldn't let up on the gas too much, at least 
for the next months.''
    And my question to you today is, what has changed between 
that original acceptable risk that was risk to our troops as 
well as our mission, that was not acceptable then, and today? 
Have you reassessed your position, and were you wrong when you 
thought it wasn't an acceptable risk? Or has there been 
something that has changed on the ground, something that has 
changed militarily, that makes that a more acceptable risk 
today?
    Admiral Mullen. What I have said for many months is, this 
is going to be--I go back up to what I said earlier--a very 
difficult year on the Taliban last year. It is going to be and 
continues to be a very difficult year with respect to the 
Taliban's goals this year.
    And my recommendations and the risk that is out there is 
very focused on achieving those objectives. And while there is 
more risk, I don't consider it significant. And I don't 
consider it in any way, shape, or form putting the military in 
a position where it can't achieve its objectives.
    Mr. Forbes. Were there any of the Joint Chiefs or any of 
the commanders on the ground that recommended this particular 
action that the President is taking?
    Admiral Mullen. Again, I'm not going to talk about 
individual recommendations.
    Mr. Forbes. You know, Admiral, I will just close with this. 
It just astounds me that when we had ``Don't Ask, Don't Tell,'' 
you were willing to come before a committee, unsolicited, and 
say, ``I am willing to state my personal opinion, and this is 
what I think it should be,'' but yet, when we are talking about 
potential risk to the troops that this committee has to make, 
which is our number-one concern, that you are not willing to 
say what those individual commanders were willing to say or 
your personal recommendations.
    And, with that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Admiral Mullen, it is an honor to be in the process with 
someone whose integrity is as unimpeachable as yours, both in 
the quality of your advice and the strength of your character. 
And we thank you for it.
    And, Madam Secretary, thank you, also, for your terrific 
contributions here.
    Madam Secretary, I think you have succinctly stated our 
purpose in Afghanistan: that we ultimately leave behind an 
Afghanistan that will never again serve as a base for terrorist 
attacks on the United States and our allies.
    I have always thought that Al Qaeda was the parasite and 
the Taliban was the host in Afghanistan. And our military 
mission, essentially, has been focused on destroying the 
parasite and either weakening the host or making the host 
unwilling to become the host for the parasite.
    And I note that Admiral Mullen says, ``We need to support 
an Afghan political process that includes reconciliation with 
the Taliban who break with Al Qaeda,'' which I think is a wise 
and understandable view.
    So with that framework of what we are trying to accomplish, 
it is my understanding that when the administration took 
office, Madam Secretary, that we had about 34,000 troops in 
Afghanistan. The surge built that up to 98,000. And when the 
present withdrawal plan is completed, we will be at 68,000. Is 
that correct?
    Secretary Flournoy. That is correct.
    Mr. Andrews. And, at present, there are 47,000 troops from 
allied countries that are in-country. What do we know about the 
plans of the allies to withdraw those 47,000? How many and 
when?
    Secretary Flournoy. Well, I think, in the discussions we 
have had, I think they are--we have an in-together, out-
together principle; a very strong sense of resolve right now in 
ISAF [International Security Assistance Force].
    Mr. Andrews. Uh-huh.
    Secretary Flournoy. And I think that, as we have talked 
about bringing down our surge forces, some of the allies are 
thinking about bringing down their surge contributions. But we 
should remember----
    Mr. Andrews. Now, in that context----
    Secretary Flournoy [continuing]. Many----
    Mr. Andrews [continuing]. In that context--I am sorry--of 
security for Afghanistan, the target number of ANSF forces is 
305,000, and, as of April, we were at 286,000. And the public 
reports indicate that, by about a three to one ratio, those 
units were deemed to be ``effective'' as opposed to 
``dependent.''
    Let me ask you a question that is not a rhetorical 
question. Given the strengthening of the ANSF, the presence of 
allied troops that we don't expect a precipitous drop in--we 
expect it to be somewhat on par with ours--what will the 
mission of the 68,000 remaining Americans be after September 
30th of 2012? Why are they there?
    Secretary Flournoy. I think they are there to continue the 
implementation of the strategy on the road to successful 
transition, which will be completed--you know, at the end of 
2014, we expect that Afghans will be fully in the lead across 
the country. We are on a glide slope toward that Lisbon goal. 
And this drawdown is totally consistent with that, and the 
strategy and the mission will keep aiming for that goal.
    Mr. Andrews. Well, Admiral or Madam Secretary, either of 
you can answer this. In terms that our constituents would 
understand and that we would understand, what will these 68,000 
troops be doing in the country after September 30th of 2012? 
What will their mission be?
    Admiral Mullen. First of all, it will be to sustain the 
transition. But, specifically--and this is, from my 
perspective, a rock-solid principle from Iraq--it is the 
partnership piece. What we see in Iraq today and what we have 
seen throughout the shift in Iraq of our mission to the assist 
side is the enormity of the impact of partnership. And that is 
where we are, even now, focused with the Afghan security 
forces. And you talked about the ratio. And in 2 or 3 years 
from now, it will be much better than it is right now.
    So that will be, if you will, a significant part of the 
main effort. But that doesn't mean we won't have forces still 
involved in combat to continue the gains, if you will.
    Mr. Andrews. Admiral, when the day hopefully comes when the 
Afghan security forces are at their optimal point and can 
control and defend their own country, what will the appropriate 
U.S. troop level be then?
    Admiral Mullen. It is indeterminate right now. I mean, 
dramatically reduced, clearly. The model is still Iraq. And 
then that gets into what is being worked right now in this 
strategic-partnership approach between Afghanistan and the 
United States. And what does it mean, long term, in terms of 
any kind of U.S. footprint, I just don't have the answer to 
that.
    Mr. Andrews. Thank you very much, again, for your testimony 
and your integrity.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Admiral, Madam Secretary, thank you for being here today.
    And, Admiral, I appreciate your testimony, bringing up the 
extraordinary progress by the American military, their service 
in Afghanistan. And I am just so grateful, too, for your 
reference to winning in Afghanistan. The American people need 
to know that progress is being made and we can win.
    And, Madam Secretary, I appreciate you referencing how 
important it is that we do win and that we are successful in 
Afghanistan.
    I wish the American people knew really the level of 
achievement, such as the security forces. And you have provided 
the information today, and I appreciate Congressman Andrews 
referencing it, too. And that is, at the end of this year, in 
the last 3 years, we will have doubled the number of Afghan 
police and army personnel up to 305,000 personnel--trained 
personnel. And General Bill Caldwell has certainly done 
extraordinary work. I had the privilege of visiting my former 
National Guard unit, the 218th Brigade, as they were training 
Afghan security forces. And I don't think they get the credit, 
our military or theirs, for the professionalism that is being 
created in that country.
    With that said, I am very concerned about conditions on the 
ground. And for each of you, the President did not reference 
any conditions on the ground that would justify withdrawing 
10,000 troops by December and an additional 23,000 next summer. 
Every witness before this committee has previously testified 
that any withdrawal would be conditions-based.
    The first question: What specific conditions on the ground 
justify withdrawing 10,000 troops by December?
    Admiral Mullen. We are literally starting transition in 
seven districts next month, in this overall transition process 
which is agreed to by everybody--you know, it was the Lisbon 
agreement--certainly NATO and other countries who are 
contributing. So this is the beginning of that, very 
specifically. And the conditions on the ground in those 
provinces support that transition. That is the approach.
    The other transition provinces, if you will--and it will, 
in great part, be tied to violence levels and tied to the 
ability of the Afghan security forces. And we get a lot of 
credit on the military side for the gains; there have been 
considerable gains on the diplomatic side. I mean, we have 
surged diplomatically over the course of the last 2 years 
extraordinary civilians who have also made a big difference.
    So the idea is, in the various provinces to--or districts, 
if you will; sorry--to transition these as conditions allow. 
And inside the numbers and the dates that you specifically 
cited, Mr. Wilson, any movement, any changes that will be 
associated with where the troops come from are going to be 
conditions-based. There is just no question about that, that 
the President has given us that flexibility.
    Mr. Wilson. And, certainly, looking at level of violence, 
the establishment of a civil society within those districts, 
what are the future conditions that are anticipated to merit 
the removal of 23,000 additional troops?
    Admiral Mullen. The improvement in the security conditions. 
I mean, the most representative example, clearly, is in the 
south, in Helmand and Kandahar specifically. It is actually--
and we have enabled this, but we have allies fighting in the 
north and in the west. And in the north it is actually turning. 
It has not turned; I wouldn't say that. But it is turning. It 
is better than it was. And a year ago, there were grave 
predictions about losing the north because of what was going on 
there.
    And we talked earlier today about the challenges in the 
east, and there are challenges there. But General Petraeus has 
a strategy that I have seen and believe in, in terms of being 
able to create the kind of conditions where we transition 
there, as well.
    So we are committed to not transitioning until it is ready, 
and we are working our way through this with the Afghan 
security forces, who have dramatically improved in size and in 
quality. That doesn't mean we don't have retention problems and 
attrition problems, although they are, particularly in the 
police force, much better. And, in fact, on the attrition side 
for the police force, we exceed our objective--meaning, 
attrition is lower than it needs to be to sustain that force.
    Mr. Wilson. As decisions are being made in terms of troop 
withdrawal, is it being considered, the effect on the morale of 
the Taliban and the extremists? Are we not giving false hope to 
them that they may prevail, that we don't have resolve, Madam 
Secretary?
    Secretary Flournoy. I do not think that we are giving them 
any comfort. If I were a member of the Taliban and I am looking 
out, where will I be next year, 2 years more, 3 years more, I 
am going to control less territory; I am going to have less 
support from the population; I am going to face more forces in 
the field, and more and more of them Afghans who will be there 
for a very long time; I am going to have less access to 
finances; I am going to have more internal dissension and 
division and defection.
    So, any way you slice it, things are getting worse for 
them, not better.
    Mr. Wilson. And we will not abandon our allies?
    Secretary Flournoy. Absolutely not.
    Mr. Wilson. Thank you.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you both for being here.
    And, Admiral Mullen, I know you will continue to give your 
extraordinary attention to the issues in the next few months, 
as you have in all of your tenure. And I appreciate your 
leadership and your service.
    We had a hearing yesterday, and I think the comment was 
made that the numbers are probably less important than how our 
troops are utilized or which troops, actually, would be leaving 
and, certainly, which troops would be staying.
    Can you break that down a little bit more, in terms of 
support troops, in terms of combat troops, in terms of training 
troops, and whether or not that decision has been made?
    I think just a follow-up question to that really is, when 
we think about the Afghan forces, how are they going to be 
sustained financially into the future? And how do we envision 
our help and support to them as we move forward?
    Admiral Mullen. With respect to the Afghan security forces 
and the bill that is associated with that, I think President 
Karzai and his people recognize that--and, certainly, we do 
from our side--that at the current level of $6 billion to $7 
billion a year, you know, it is not sustainable.
    And so there is a lot of work going on on both sides right 
now to figure out what is sustainable, what will be needed, and 
including a view that, do you need 352,000 in 2014 or 2015? And 
I don't know the answer to that.
    But everybody recognizes that the current level, from a 
financial standpoint, it is not sustainable, and solutions have 
to be taken with respect to a way forward there.
    And what was the first part? I am sorry.
    Mrs. Davis. The way that the remaining troops--and, of 
course, there are large numbers; we are talking about 68,000--
but in terms of breaking down with support troops versus combat 
troops, training?
    Admiral Mullen. Well, I think the combat--in those three 
categories, were I a commander on the ground, I would be 
focused on the combat and training troops first, keeping them 
as long as we possibly could.
    But I just don't discount the need for the kind of support 
troops, if you will. And I include in the first group the 
enablers, and that General Petraeus and General Rodriguez and 
their reliefs are going to have to determine the specifics.
    And I think, on the 23,000, I think knowing exactly where 
they will come from, it is far too soon to know that, because 
that will be conditions-based, and the conditions are going to 
change between now and when they really have to focus on 
executing that.
    I think in the near term, clearly, that General Petraeus 
and General Rodriguez had some expectation, obviously, there 
would be a withdrawal here over the course of this year and 
specifically what that might entail. And they have done a lot 
of that work. I have not seen it, although they will certainly 
come in in the near future with how to do that.
    Mrs. Davis. Okay. Thank you.
    If I could, I want to follow up on the reintegration, 
reconciliation issue. And we know, if we look around for 
success, I think a lot of that is defined by the number of 
young women that are in school, girls that are in schools. I 
have had a chance to visit at those schools, as well as a 
number of the trips that we have taken for Mother's Day to 
visit with our troops but also to engage with women in villages 
as well as in leadership. A number of those women were here in 
the Capitol this last week.
    What role are we really playing to make sure that it is not 
just a lot of rhetoric about the fact that they are important 
to the development of a civil society there? How are we moving 
forward to be certain that their voices are a meaningful voice 
in this process? And at what point would we consider that the 
reconciliation is not even working or moving forward? And what 
role would that play as we continue to look at troop 
withdrawal?
    Secretary Flournoy. I think that Secretary Clinton and many 
other members of the administration have consistently raised 
the issue of female participation in both the reintegration, 
community-based processes, but also the larger reconciliation 
process. And we have raised that issue with our Afghan 
interlocutors, continue to press the point.
    I think you see a gradual expansion of women involvement in 
the High Peace Council, for example, involvement in more of the 
community-based oversight efforts that are emerging.
    So, you know, when we talk about the key criteria that 
those who reconcile must meet and we talk about respecting the 
Afghan Constitution, the key element of that is respect for 
minority and women's rights. And that has been a key plank in 
our policy from the get-go. It is something we continue to try 
to translate into concrete improvements with our Afghan 
interlocutors. It is very important.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank you both.
    And, Admiral Mullen, I want to go back to a topic that I 
think goes to the heart, really, of what we see in the conflict 
in Afghanistan, which is the issue of opium production and the 
drugs that are fueling and funding the Taliban and other 
insurgent activities.
    Frequently, when we have these hearings, I hold up this 
chart that is a Congressional Research Service bar chart that 
shows the opium production that has occurred during our time 
period and historically in Afghanistan. If you look at the 
chart, you can see that, in the 4 years of 2006 through 2009, 
opium production almost doubled. That is the time period when 
we saw that we needed to go in with the surge. The period 
beforehand, there was historical levels of opium production.
    I have used this chart both with President Karzai and 
General Petraeus to raise the issue of, you know, we need to do 
more to lower the opium production and the narcotics trade. 
General James Jones said that he believes that these funds go 
directly to fund the Taliban, and he of course said that it 
also goes to fund the issues of corruption.
    Now, when General Petraeus was here last time and I held up 
this chart, he kindly told me that there was new information as 
to what successes we have had, and he has sent me a new bar 
chart. And the new bar chart shows that, in 2010, there was a 
48 percent decrease as a result of our counternarcotics 
efforts; also, there was disease among the crops; but, also, 
that there has been a 341 percent increase in our nationwide 
drug seizures in Afghanistan, clearly showing that this was a 
result of the activities of increased focus.
    Admiral, with our reduction in troops, my concern is that 
we are going to go back to a period where we take our eye off 
the ball and that we may again see a surge in narcotics. What 
assurances can you give us that, with the lower number of 
troops, we will be able to maintain a counternarcotics strategy 
to reduce opium production and the funding of the Taliban?
    Admiral Mullen. Well, I think we will continue to certainly 
press on this issue.
    You have looked--just showing the charts, you look at the 
levels over the years, and, in many ways, it is a way of life 
that isn't going to go away quickly. There have been 
considerable improvements, and we continue to keep pressure on 
that.
    I mean, one of the challenges--and this is going on--
obviously, it comes principally from Helmand--and the 
landscape, the dynamics are changing in Helmand. By no means is 
it gone. And the long term goal is obviously to produce a 
better way to provide for one's family than what has happened 
to date.
    I think it actually happens over the long term based on the 
security environment and having, you know, profitable crops 
that are able to do that. But I don't think that is going to 
mean we are going to dry it up overnight.
    The focus--a critical focus here on the Taliban is where 
they get their finances from, as it is for any terrorist 
organization. And certainly this is--and, over the years, this 
has varied. I have seen many estimates of how much money they 
actually get from it, but it is substantial. And we need to 
continue to focus on that, as well.
    So, really, there is a near-term piece here, but there is a 
long-term piece. And from an overall strategy standpoint, my 
view would be that we would have the conditions in the south, 
in Helmand in particular, in a place where they couldn't 
sustain that kind of production over the long term.
    Mr. Turner. Admiral, I would like to yield the rest of my 
time to Joe Wilson.
    Mr. Wilson. Thank you.
    And, Admiral, a question--I want to conclude--in regard to 
conditions-based. The success of the surge, the ultimate 
reduction in violence, the development of a civil society, if 
in fact violence increases, if we are unable to promote a civil 
society, will the President change his course? Or is the 
timeline of withdrawal more important than conditions?
    Admiral Mullen. I think that is for the President to 
decide. But what I said earlier, Mr. Wilson, is--and I go back 
to mid-2009, we put 10,000 Marines in Helmand, and my view then 
was, if this isn't working within 18 to 24 months, we really 
need to reassess our strategy.
    I think, from the standpoint of the next 18 to 24 months, 
given the transition--and it doesn't just include the military 
side here. Because the issues of corruption, the issues of 
governance, the issues of Pakistan, those are all still 
significant, inherent risks in this overall strategy.
    So I think, you know, certainly from my point of view, 
after a period of time, if it is not working, that a 
reassessment is in order. But that is not for me to decide.
    Mr. Wilson. Thank you.
    The Chairman. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    And thank you, Admiral Mullen. I appreciate your 
extraordinary service. It is not easy doing your job, and one 
of your toughest parts may be the patience you have to 
demonstrate in front of committees like this. So I appreciate 
your forbearance.
    One of the most important factors, as you well know better 
than anyone, is the Pakistan reaction. And I assume that the 
Pakistan situation was taken into account when this decision 
was made?
    Admiral Mullen. It was.
    Mr. Cooper. Uh-huh. What is that reaction?
    Admiral Mullen. Well, I--you mean the Pakistan reaction or 
Pakistan itself?
    Mr. Cooper. Pakistan's reaction to the decision to have a 
slight troop drawdown?
    Admiral Mullen. Well, I actually haven't gotten it yet. I 
spoke with my Pakistani counterpart yesterday, as we made many 
contacts. And so, we agreed to talk in the near future after he 
is able to sort of absorb it.
    I mean, from a standpoint of how Pakistan views the 
future--and it is consistent across their government--they see 
a stable, peaceful Afghanistan as a goal they, too, would like 
to be a result of this overall strategy. They live there. 
Seeing is believing. And, over time, exactly how they view this 
will be determined on how this works, I think, personally.
    I also think that they are clearly going through, you know, 
a very difficult time right now. From a strategic standpoint, I 
and many others believe, including the President, that we have 
to sustain this relationship, as difficult as it is. This is a 
country who has a significant terrorist problem. It is a 
country whose economy is very weak. And it is a country with 
nuclear weapons that is in a very dangerous and strategically 
important part of the world.
    I think, not just the United States, but the regional 
countries need to continue to focus on this, so that stability 
is something that is the output of all of what we do there, not 
just--not continued instability. Because I think the continued 
downward trend is dangerous for all of us, with respect to 
Pakistan, Afghanistan, and the region writ large.
    Mr. Cooper. Well, I know it takes a great deal of patience 
and expertise to deal with folks like that. I find that my 
constituents don't usually realize that Pakistan has more 
people than Russia, for example.
    Admiral Mullen. Yeah. I mean, they are projected to have 
over 200 million here in the next 20 or 30 years and be the 
fourth- or fifth-largest nuclear power, if you consider 
weapons, I think the fourth, in roughly the same time frame.
    Mr. Cooper. Uh-huh.
    Admiral Mullen. So it is not a country I--it is just a 
country I think we have to continue to engage with and be frank 
with.
    And, at the same time, you know, I think we are paying the 
price in Afghanistan and Pakistan for walking away in 1989. And 
that is a model that just runs in my head 20 years from now, 
whoever is sitting here or sitting in your seat, we are having 
the same conversation, were we to walk away, except it is much 
more dangerous than it is right now.
    Mr. Cooper. Increasingly, Pakistan has, itself, been the 
victim of terrorist attacks.
    Admiral Mullen. Correct.
    Mr. Cooper. In Karachi, most recently, and other instances. 
So they have felt the wrath of the Taliban and the Haqqani 
network and other groups.
    Admiral Mullen. They have lost tens of thousands. They have 
lost, specifically, over 3,000 of their military. They have had 
tens of thousands wounded. They have sacrificed greatly for 
their own country. Sometimes that sacrifice gets lost.
    And they have some enormous, enormous challenges. They have 
faced them. They will continue to face them. And I think we 
need to help them, not hurt them.
    Mr. Cooper. Uh-huh. As you say, they are a reality that we 
are going to have to deal with regardless. And we might as well 
face up to that, and not push the problem to the side or ignore 
it.
    Admiral Mullen. Yes, sir.
    Mr. Cooper. General Bing West wrote a book recently called 
``The Wrong War,'' talking about the war in Afghanistan. And he 
said that one of the chief problems is Hamid Karzai's 
unwillingness to let us police the gaps in the mountains, the 
valleys, and actually terminate flow of folks across those 
treacherous border regions along the Durand Line.
    Is he mistaken? Is this something that we need to demand of 
President Karzai?
    Admiral Mullen. Well, I go back to what General Petraeus 
and General Rodriguez have done over the course of the last 
year, particularly in the east, and that is where he is talking 
about it. And General Petraeus made the--along with General 
Rodriguez and General Campbell, who basically ran the campaign 
in the east for the last year, to refocus it, to layer it from 
the border at Pakistan to Kabul, and, in fact, to pull forces 
out of those very remote places, which none of us thought was 
strategically significant. That doesn't mean we didn't have bad 
guys out there; we do. But this layered approach to ensure that 
we could protect the capital and deal with the Haqqani, make it 
much more difficult on the Haqqani network, which is the one 
that flows most of the fighters in there, was a better 
strategy.
    Mr. Cooper. Thank you. My time has expired.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Admiral, you are here during an interesting time. And, 
Secretary Flournoy, you have been back here month after month. 
And I just want to say thanks for both of your service. We 
don't always see eye to eye on stuff, but you are out there out 
front, and you are doing what you believe is in the best 
interest of the Nation.
    I haven't heard anybody talk about a strategy. You know, 
people ask what we think about the troop numbers. I have no 
idea what the troop numbers are supposed to be. I am not a 
military planner.
    But I know what our troops are capable of, and I know that 
higher numbers are better for a big counterinsurgency 
operation. If we had 10 years and 300,000 troops, we could make 
Afghanistan into San Diego. It would be a nice place to go fly 
fishing and sheep hunting at. But we don't have 10 years; we 
don't have 300,000 people on the ground.
    I haven't heard any talk about change in strategy to 
accompany the change in the troop numbers. How come? We are at 
the low-ball end----
    Admiral Mullen. Well, I mean, actually, the short answer 
is, the strategy hasn't changed.
    Mr. Hunter. We are at the low-ball end of the numbers that 
McChrystal asked for. So I don't----
    Secretary Flournoy. Well, I think----
    Mr. Hunter [continuing]. Want to get wrapped up in the 
numbers game.
    Admiral Mullen. Yeah, but, I mean, McChrystal was talking 
about troops, this is 2 to 3 years ago. And it has just--it has 
changed, you know, it has changed dramatically on the ground 
since then. So, clearly, it is something we look at all the 
time.
    You know, it is interesting in overall numbers, because, 
you know, I mean, I spend a lot of time looking at who is there 
and who is making a difference and who isn't. And, you know, we 
have a culture of putting a lot of numbers in; historically, we 
have, all of us.
    We have learned a lot with respect to that. I was just in a 
meeting with General Odierno as recently as yesterday. We were 
talking about, you know, what we learned with respect to Iraq. 
And we had excess forces in Iraq just because we were moving 
them so fast.
    So we literally take those lessons into account as we look 
at how we do this. And despite the pressure on numbers, that 
has also forced us to, not adjust our strategy, but look at how 
we focus this, prioritize, and still achieve success.
    You talked about the military. I mean, it is an 
unbelievably innovative, creative, capable military that we 
have. And, again, I talked about, you know, more risk and 
quicker than I had originally anticipated. But it hasn't put me 
anywhere close to out of the risk envelope, if you will, of 
getting this done.
    And, at some point in time, if it is not working, we are 
going to have to adjust the strategy. The strategy still is----
    Mr. Hunter. You don't think this----
    Admiral Mullen. The strategy still is, you know, a 
counterinsurgency focus, without any question, you know, 
properly resourced. And, you know, we could probably get into a 
debate about that. I think it is, given the mission and the 
objectives that we have right now and the progress that we have 
made.
    If it is not working in a year or two, you know, my 
recommendation would be it needs to be reassessed.
    Mr. Hunter. We probably have different interpretations of 
counterinsurgency. I mean, it can be an all-encompassing thing, 
where you are building hospitals and schools, or it can be 
where you have village security operations which are working 
very, very well, little militias in each town. I mean, you 
obviously know what VSOs [Village Stability Operations] are.
    Admiral Mullen. Sure.
    Mr. Hunter. Those are working. Some things aren't working.
    But you don't think that there is any need--so you are 
telling me there is no need for a relooking at the strategy as 
we draw down in the tens of thousands for the ``clear, hold, 
build''?
    Admiral Mullen. It goes to--I will be very specific--it 
goes to, well, how are we going to handle the east? And the 
east is going to not be held by U.S. forces. It is going to be 
both denied across the border as well as held by Afghan forces.
    Mr. Hunter. But you are going to have to hold the south as 
you go east, or you are going to lose all the gains you have 
had in the south.
    Admiral Mullen. But it is----
    Mr. Hunter. So, a drawdown in troops and hold what we have, 
which has taken so many troops, and move east at the same time 
with fewer troops?
    Admiral Mullen. The intent, certainly, over the course of 
this transition is to hold and transition to Afghan security 
forces. And that is going to be the challenge. I mean, I am not 
here to say that is a done deal, because it isn't. But that is 
the strategy.
    And within the resources that we see right now, we see it 
as executable. No one--not Petraeus, not Rodriguez, not 
anybody--has said that is not the case. Is it going to be hard? 
You bet it is going to be hard.
    Mr. Hunter. Okay.
    Madam Flournoy.
    Secretary Flournoy. I was just going to add, if you go back 
to the original six campaign objectives laid out in the West 
Point speech--reverse the Taliban's momentum; deny them access 
to population centers; disrupt them in areas outside of that; 
degrade them to levels manageable by the ANSF; build the ANSF 
capacity; and then build the capacity in selective areas of the 
Afghan Government--as we do that, we always anticipated----
    Mr. Hunter. We are successful now, kind of, on all of those 
things.
    Secretary Flournoy. Correct. But as we do that, that 
success enables a shift of the effort more toward the Afghans 
as they stand up. It allows us to thin out our----
    Mr. Hunter. I was in Iraq. I understand how it works. Yeah, 
I mean----
    Secretary Flournoy. And so, we have always anticipated 
that, with success, the strategy would require fewer resources 
on the coalition side and more on the Afghan side. And that is 
the path we are on.
    Mr. Hunter. Thank you.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Admiral and Under Secretary, thank you very much for your 
service. I know that you have worked long and hard on 
extraordinarily difficult challenges, and it is much 
appreciated.
    I want to just confirm, I think I heard you say, Admiral 
Mullen, a moment ago that the mission remains a 
counterinsurgency mission. Is that correct?
    Admiral Mullen. That is correct. The strategy is a 
counterinsurgency strategy.
    Mr. Garamendi. Thank you. And that involves all that was 
just said just a moment ago, all of the ``clear and hold'' and 
all that goes with it. In other words, nation-building is very 
much a part of this.
    Admiral Mullen. You know, it isn't--from my perspective, it 
isn't very much a part of this. It is a counterinsurgency 
strategy focused on, as the Secretary just laid out, limited 
objectives, which is what it has been and is what the President 
talked about in his speech in 2009.
    Mr. Garamendi. The notion of counterterrorism--that is, to 
focus on the terrorists, wherever they happen to be around the 
world--seems to be secondary to this mission in Afghanistan.
    Admiral Mullen. I think it is not secondary at all. It is 
integral, very much. And it has been. I have spoken about that 
before. That is also how it is being executed. And I just don't 
separate the two. It is part of it.
    Secretary Flournoy. If I could just add, if you look at the 
region at large, Afghanistan and Pakistan, and you look at the 
progress that we have made in terms of focusing pressure on Al 
Qaeda senior leadership--the Osama bin Laden raid as the latest 
example--but that pressure continues. It is looking at them 
globally.
    So there is, I would say, only an intensification of our 
focus on counterterrorism alongside a complementary 
counterinsurgency campaign in Afghanistan.
    Mr. Garamendi. Are all of the Taliban the same? That is, 
the Taliban in Herat, the Taliban in Kandahar, and so forth. 
Are they all the same? And do they have the same goal?
    Secretary Flournoy. They are not all the same. This is a 
diverse, symbiotic network of groups that assist one another, 
that rely on one another, but do have overlapping but sometimes 
distinct goals.
    Mr. Garamendi. Some would describe Afghanistan as a five- 
or six-sided civil war. Do you agree or disagree with that?
    Secretary Flournoy. I would disagree with that. I think 
what is happening right now in Afghanistan is really the 
emergence of a nation from 30 years of war and the rejection of 
the Taliban by the population and, with that, the reduction of 
the threat to us, because as the population rejects that 
movement and as they build their own national capacity, 
Afghanistan is less and less likely to become a safe haven for 
Al Qaeda and attacks against the United States and its allies.
    Admiral Mullen. Can I just add one thing to this?
    Mr. Garamendi. Yes.
    Admiral Mullen. This border area that we have obviously 
focused on--and Al Qaeda receives the focus. And Ms. Flourney 
said ``symbiotic.'' I have watched terrorist organizations over 
the last 3 or 4 years merge with each other, increase their 
horizon in terms of objectives. So LET [Lakshar-e-Taiba], which 
is a local outfit in eastern Pakistan focused on India, is now 
in the west and now has transnational aspirations.
    So terrorist organizations are also different, generally in 
support of each other. And in this place, this is the epicenter 
of terrorism in the world. And that is one of the reasons the 
focus on both Afghanistan and Pakistan is so important.
    Mr. Garamendi. What is the cost of the strategy that you 
have described to us today--the cost in 2011, 2012, '13, '14?
    Secretary Flournoy. If you look at the costs over time, 
what we do see happening is those costs actually coming down.
    Mr. Garamendi. Well, let's be very specific. Surely, you 
have figured out what the cost of your strategy is.
    Secretary Flournoy. Right. So, for 2011----
    Mr. Garamendi. And could you please share that with us?
    Secretary Flournoy [continuing]. The request for 
Afghanistan was $43 billion----
    Mr. Garamendi. I am sorry?
    Secretary Flournoy [continuing]. In OCO [Overseas 
Contingency Operations]. So the request for Afghanistan--I am 
sorry?
    Admiral Mullen. No, it is--I mean, we are running right now 
at about $10 billion a month.
    Mr. Garamendi. Okay.
    Secretary Flournoy. I'm sorry, that's obligation.
    Admiral Mullen. The 2011 request I think is for $117 
billion. The bill of this, we look at it coming down about $30 
billion or $40 billion a year based on the strategy that is 
laid out.
    Mr. Garamendi. And 2012 will be how much?
    Secretary Flournoy. Less than $120 billion for 2012. It was 
$160 billion in 2011. So it is about a $40 billion decline from 
2011 to 2012.
    Mr. Garamendi. Okay. Could you please give us those 
numbers?
    Secretary Flournoy. Yeah, we can give you that.
    [The information referred to can be found in the Appendix 
beginning on page 69.]
    Mr. Garamendi. Thank you very much.
    Secretary Flournoy. Thank you.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Admiral Mullen, Secretary Flournoy, thanks again for your 
service and dedication to this country.
    Counterterrorism and counterinsurgency, they are not 
absolutes. It is really more of a continuum. And how would you 
gauge the current strategy? Are we then shifting a little bit 
more to add more counterterrorism elements as we draw down 
forces? Or how would you state that, Admiral Mullen?
    Admiral Mullen. Again, I think where we are a year from now 
is going to be determined on how it goes this year. It is 
heavily focused on both, as we speak. I mean, the CT 
[counterterrorism] effort inside this counterinsurgency 
strategy is significant. And General Petraeus asked for and got 
more forces to do that.
    So, will there be a different balance a year from now? 
Probably. How much, I think it is hard to say. And I think, 
again, what forces the commander on the ground recommends 
taking out next year is going to be determined by what happens 
this year. And we are not even halfway through this fighting 
season, so it is really difficult to say exactly how it is 
going to look a year from now.
    Mr. Coffman. Admiral Mullen, I think you stated, quote, 
``In a counterinsurgency, firepower is manpower,'' unquote. And 
can you drill down just a little bit on what does that mean?
    Admiral Mullen. Well, you have to have people out there 
engaged. The whole idea in a counterinsurgency is to focus on 
and protect the people--in this case, the Afghan people.
    What is important in this--this goes back to the success of 
the build of the Afghan security forces. The army, for sure; 
the police, absolutely. And not unlike Iraq, the police lag the 
development here, although, you know, it is going better and 
better.
    So, in the end, it is the protection of the people, 
security for the people. And there is going to be, in numbers, 
you know, a larger number of people focused on this in 2012 
than focused in 2011, just because of the continued build of 
the forces. So it is not just U.S. manpower or coalition 
manpower; it is the totality of manpower.
    And, in fact, to these VSOs that have gone so well--and 
they are small in number right now, 6,400, as I indicate--that 
is an enormously successful program, VSOs and Afghan local 
police. And we will continue to build that.
    Mr. Coffman. Admiral Mullen, in the Lisbon conference, I 
believe the policy decision coming out of that was that we 
would transfer operational control to Afghan security forces by 
the end of 2014.
    Can you just be more specific as to what that really will 
look like? Does that mean we will still have some boots on the 
ground then in support of Afghan security forces?
    Admiral Mullen. The model that certainly is very much in 
the front of our minds is Iraq. And we will, clearly, continue 
to have forces there. And the Lisbon commitment is to have 
Afghans in the lead, you know, throughout the country, every 
single district, by the end of 2014. And that is where we are 
headed. As much advise and assist and support as is necessary 
at that point.
    But, I mean, what we have watched in terms of the both 
growth rate and learning rate, they are on a pretty good glide 
slope right now, in terms of ascendance to be able to do this, 
the Afghan security forces.
    Mr. Coffman. Okay.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    My questions flow along the lines of what Mr. Wilson 
brought up earlier, and Ms. Davis, talking about the drawdown 
being determined by conditions on the ground, the movement 
toward the Afghan security forces, the Afghan National Police 
being able to take over security.
    My concern comes from the future of this operation at an 
economic level. The Afghan security forces are taking over more 
geography, but are we creating a situation where we have 
created such a large Afghan Army that the Afghan economy just 
will not be able to support that?
    And I think we have to look at this, you know, if the 
crystal ball says that we will be drawn down to a condition 
sort of like what we have in Iraq right now by 2014, what is 
the dollar amount that the Afghan Government, the Afghan 
economy, is going to have to generate? And then how much of the 
U.S. support is still going to be there in a financial sense?
    Secretary Flournoy. That is something we are looking at in 
great detail right now. One question is, once the insurgency is 
degraded, the level of threat is degraded, how big an army and 
police force do you really need? And it may well be smaller 
than what we have currently planned. They may be experiencing 
their own surge right now. Maybe they will settle at a lower 
level.
    Secondly, we are working very hard with the Afghan 
Government on revenue generation, whether it is substantially 
increasing their border revenues, growing their economy, 
working with them on extractive industries to gain from their 
strategic mineral and mining resources.
    But, ultimately, we do have to get this on a more 
sustainable footing, and it has to cost less than what is 
currently anticipated. But I think we are working through that 
now with lots of analysis and the Afghans.
    And we do believe we can get there, but it is going to--but 
let me be clear, this is going to be a substantial assistance 
effort, not at the levels that are currently projected, but 
this is going to be--Afghanistan is going to require 
international development assistance for many, many years. It 
will remain one of the poorest countries in the world for quite 
some time.
    Mr. Critz. Well, and, obviously, you have heard from this 
committee. I mean, the support from this committee for what our 
military personnel are doing is second to none. Because they 
are doing--I mean, besides being warfighters, they are 
educators, they are counselors, they are parents, and they are 
doing more than probably any military has ever had to do. So 
the support is very strong.
    But, again, it just seems that we have developed a model 
that is just not sustainable. And, of course, then you look 
forward, and if you say a shrinking of the security forces, 
well, you know, we know it in this country; we call them 
``layoffs.'' That means there are people not working. And, 
obviously, with an economy, the delta is so large.
    You know, I am really very concerned about this, as are a 
lot of people, that we are setting ourselves up for either many 
decades of support just to maintain this or just something that 
is just not functional, come down the road.
    I yield back.
    The Chairman. Thank you.
    Mr. Young.
    Mr. Young. Thank you, Madam Secretary and Admiral Mullen, 
for being here today. I really appreciate your testimony.
    You know, I want our troops to come home as soon as 
possible. Everyone here does. But notwithstanding your 
reassurances, Admiral Mullen, I am not yet comfortable that the 
decisions related to this drawdown or future decisions related 
to our force posture in Afghanistan are, in fact, going to be 
primarily based upon conditions on the ground. So I hope to get 
comfortable with that.
    One of the conditions on the ground, as I see it, that is 
very important as we consider our existing force posture and 
future force posture is, of course, the conditions on the 
ground in Pakistan, where there are elements, various extremist 
elements, including elements of the Taliban, that reside over 
there in a relatively safer haven than Afghanistan.
    You acknowledged that yourself, Admiral, that the situation 
in Pakistan is a significant, inherent risk to our overall 
strategy. These elements, extremists laying in wait in 
Pakistan, threaten to create the very conditions, destabilizing 
conditions, that justify our presence in Afghanistan, 
regardless of our progress toward the six components of our 
overall strategy articulated in the President's West Point 
speech.
    So my first question, laying that groundwork, is: Admiral 
Mullen, are you prepared to say that the conditions on the 
ground in Pakistan have improved to such an extent that the 
threat to the government in Afghanistan and to the people of 
Afghanistan by these extremists in Pakistan has diminished to a 
significant degree?
    Admiral Mullen. I think it is really important to remember 
that the, you know, core goal of the President's strategy was 
to disrupt, dismantle, and defeat Al Qaeda. And Al Qaeda is 
very much on the ropes right now. I don't say that thinking it 
is over, because they still would like to kill as many of us as 
they possibly could, and they have aspirational goals to do 
that.
    Secondly is to make sure that Afghanistan can't turn into 
fertile ground for Al Qaeda or another organization which would 
threaten us long term. And that is really what the Afghanistan 
piece of this is.
    Mr. Young. I am going to very rudely interject, which is a 
euphemism for ``interrupt'' here on the Hill.
    But, all right, so we are trying to create conditions, of 
course, where Afghanistan can't become a safe haven. But it 
seems that Pakistan is a relatively safer haven already.
    Admiral Mullen. And that is where, first of all, targeting 
significant leaders in those other organizations, the Afghan 
Taliban, the Haqqani network, et cetera, with, in many cases, 
our Pakistani partners, which is problematic, is a part of 
this. And what the strategy is intended to do is buy space so 
that there can be political reconciliation across the board. 
That is not an insignificant----
    Mr. Young. All right, Admiral. So it seems that we are 
approaching Pakistan with a very limited sort of 
counterterrorist strategy, when we are implementing a 
counterinsurgency strategy over in Afghanistan. We have our 
UAVs [unmanned aerial vehicles], much reported, that are going 
after----
    Admiral Mullen. I think our----
    Mr. Young. Yes?
    Admiral Mullen. I think our approach with Pakistan has been 
to engage them, to try to partner with them, support them in 
training, so that they can deal with the threats which are both 
internal to them as well as external.
    Now, that is a very, very difficult strategy and execution, 
just because of both the history, the lack of trust--we left 
them before--and, obviously, recent events.
    Mr. Young. Right. Okay.
    So, Admiral, in your estimation, we can never send in 
enough American troops to Afghanistan to create conditions 
where the extremists across the border in Pakistan would not 
present a threat to the Afghans, conceivably a threat to the 
United States----
    Admiral Mullen. No, it has to change in Pakistan.
    Mr. Young. Right. So all of this depends upon the 
Pakistanis playing ball, if you will, to put it colloquially.
    Admiral Mullen. There is great risk in the strategy tied to 
Pakistan. There has been from the beginning.
    Mr. Young. Okay.
    Now, finally, is our remaining presence on the ground in 
Afghanistan in part a hedge against, or a deterrent to, future 
efforts by these militants in Pakistan to use regions of that 
country as an unfettered training ground for their activities, 
or even a worse case scenario, to get control of Pakistan's 
nuclear arsenal, perhaps through violent means?
    Admiral Mullen. I think, through Pakistani eyes, what you 
say, you know, they are very concerned about an unstable 
Afghanistan that could threaten them with a much larger force. 
That is why getting to some level of stability and peaceful 
outcome here is so important. And I believe, if we can, 
Pakistan will come to that.
    Mr. Young. So, as I assess whether we should keep troops 
there or not, we should in no way factor in the fact that our 
troops are playing a productive role in perhaps deterring those 
extremists----
    Mr. Scott [presiding]. The gentleman's----
    Mr. Young [continuing]. Taking control of the nuclear 
arsenal.
    Admiral Mullen. Am I allowed to answer that?
    Mr. Young. Can he answer?
    Mr. Scott. Admiral, if we could get that question on the 
record and get the answer for the committee, we would 
appreciate it.
    Admiral Mullen. Sure.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Scott. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Admiral Mullen, thank you for being here; Secretary 
Flournoy. Appreciate your service to our country and all that 
you are doing to keep America safe.
    Admiral, let me just say that, you know, I am concerned 
that we are reaching a point of diminishing returns in 
Afghanistan. Clearly, the war has cost us billions of dollars 
and thousands of lives lost or wounded. I was mindful of that 
just this past Tuesday when I went out to Walter Reed to visit 
some of our wounded soldiers there.
    At our Emerging Threats hearing yesterday on evolving 
terrorist threats, Dr. Sebastian Gorka of National Defense 
University noted that Al Qaeda no longer exists in Afghanistan 
in any reasonable number. Ultimately, clearly, we deployed to 
Afghanistan to eliminate Al Qaeda and deny the region as a 
source of terrorist activity there. Our troops clearly have 
performed the mission incredibly well; Al Qaeda effectively is 
gone from Afghanistan. But, obviously, new terrorist threats 
are being cultivated in other trouble spots like Pakistan, 
Yemen, and North Africa.
    Now, the President, in his strategy that he released last 
night, is going to bring home 33,000 troops by next summer.
    My question is--and I know that you have talked about that 
the reason to leave that number there and not bring them home 
sooner is to ensure that we have enough troops to support 
another wave of heightened violence that accompanies the summer 
months in Afghanistan so that our claimed victories there won't 
be lost.
    I have to say that I really remain unconvinced. As both a 
member of the Armed Services Committee and the House 
Intelligence Committee, I have transparency into both worlds. 
And I question, where are the gains that really have been made 
that would justify us keeping the additional 23,000 troops in 
there until next summer?
    Can you further convince me? What is the real rationale for 
not bringing the 33,000 troops home by the end of this year? I 
know that my constituents are looking for that answer, and I 
need to have it, as well.
    Admiral Mullen. From a military standpoint, it is the focus 
on keeping the firepower, if you will, the manpower, there 
through the fighting season, and certainly by the end of 
September, it does that next year, and then, obviously, putting 
the commander in a position to make decisions about where he 
may or may not take troops from, first of all. Secondly, I get 
the Al Qaeda--no Al Qaeda or a very small number of Al Qaeda in 
Afghanistan. That is not the case in Pakistan.
    And I just never looked at this as a single-country 
approach. You can't, from my perspective, you can't do that. It 
is the region and part--you know, the other core objective, if 
you will, of this strategy is to make sure Afghanistan is 
stable enough so it can't return to where it was when Al Qaeda 
grew up there and struck us in the first place or some other 
outfit that would seek to do the same thing. There are growing 
numbers of those. So--and that is not--that is not where we are 
in Pakistan. That is where we are in Afghanistan.
    Admittedly, Al Qaeda is not there in any kind of 
significant numbers. Al Qaeda, however, is very tightly wound 
with the Haqqani network, who continues to try to destabilize 
Afghanistan and take over that government. The Taliban's 
strategic goal is to still run the country. And I am hard-
pressed to think that if the Taliban are still running the 
country or get back to that position, that they won't be the 
host, if you will, for organizations like Al Qaeda in the past.
    So the focus, again, I think, is to have as much combat 
power there through this fighting season. We have talked about 
that and the importance of getting through--vastly through next 
fighting season as well and then move the troop--and that to me 
is the time to bring the surge troops out.
    Mr. Langevin. Let me try this from then another 
perspective. I had hoped, quite frankly, to hear that the 
President was going to be withdrawing more troops than what he 
has planned over the next--even the next year. Why are we not 
cutting our forces in half by next summer? What is the margin 
of utility of having the extra 17,000 troops there between the 
30,000 that the President wants to bring home by next summer 
and the number of--would achieve 50 percent, that extra 17,000 
troops by the summer?
    Admiral Mullen. I think if we did what you just described, 
we undo all the gains that have occurred since he put the surge 
in simply. The strategy has absolutely no chance of succeeding 
were we to do that.
    Mr. Langevin. I know that my time has expired. I thank you 
both for your service. We, obviously, have still tough 
questions and tough roads ahead. But I appreciate the work that 
you are doing. Thank you.
    Mr. Scott. Admiral, I had a couple of questions when I was 
down front.
    I will be very brief so that we can move on to the other 
members. If you would, just my concern after being there a 
couple of weeks ago and talking to the soldiers, the generals, 
our intelligence community, you hit on this when Congressman 
Cooper was talking about Pakistan and that if we walked away 
now, we would be right back here in 20 years. I recognize that 
we weren't talking about--that we were talking about Pakistan 
at the time, if I am not mistaken. Is that----
    Admiral Mullen. I think, again, it goes to the regional 
approach. I wouldn't be so specific. I mean, we walked not just 
from Pakistan in 1990; we walked from Afghanistan in 1989.
    Mr. Scott. Yes, sir. I think my concern--and if you would 
speak to this is, as you sit there as somebody that we rely on 
to help us make the decisions, and your statement was Al Qaeda 
is on their heels, and the Taliban is in check. And does that 
accurately reflect your statement, that Al Qaeda----
    Admiral Mullen. The Taliban is in check in the south. They 
are not in check in the east.
    Mr. Scott. And so our concern and my concern is I hear that 
we have them on their heels with one group and in check, at 
least in certain regions, in others; why would we draw down 
until we had them in checkmate?
    Admiral Mullen. I think in the judgement that we can accept 
the risk associated with that drawdown, while still able to 
succeed in the overall strategy, based on the gains of the 
surge over the course of the last--since the President 
announced it 18 months ago.
    Mr. Scott. My understanding is that Germany, France and 
Britain have all announced troop withdrawals somewhat 
simultaneous with ours, along a similar schedule as ours. Is 
that correct? That is what is reported in the news?
    Secretary Flournoy. They are very, very modest, and they 
are not uniform at all. I would say they are more modest in 
general than what we have proposed. For the most part, our 
allies, the Australians, others, are saying we are in it. We 
are committed. We are signed up to the Lisbon plan, and that is 
what we are sticking with. And I haven't heard anybody walk 
away from what we all agreed at Lisbon.
    Mr. Scott. Is it public what the total NATO force will be, 
U.S. and coalition forces? Or is that classified information 
and when those drawdowns are anticipated?
    Secretary Flournoy. I don't think we have the particulars 
yet to be able to calculate where that will be a year from now. 
But we certainly release the numbers of where we are today. I 
don't think we have heard enough detail from our partners to 
know exactly where we will be at the end of the next summer. 
From what we have heard so far, there will not be dramatic 
increases or people departing the coalition. There is a lot of 
commitment to the strategy and making it succeed.
    Mr. Scott. As we have that information, I would appreciate 
it if you would update me and the committee, because I do think 
it is important what the total force is as well as the U.S. 
force. I am going to yield the remainder of my time.
    Secretary Flournoy. I would be happy to do that.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Scott. And we have got Ms. Hanabusa.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Thank you, Under Secretary and Admiral, for being here. My 
question, whichever one of you can answer it, is that I think 
the public is a bit confused about what 2014 represents. I 
think when people think of 2014, given the announcement of the 
numbers that we are withdrawing, that people are construing 
that as the date that, by the end of 2014, we would have 
withdrawn our troops.
    But in reading both of your testimonies, 2014 is clearly 
being identified as the day that--or the time that Afghan--or 
Afghanistan takes over basically the whole military effort. So 
given that, what are the numbers that are anticipated?
    And I think, Under Secretary, you made a statement that if 
peace is achieved, then the numbers that are currently planned 
may then be reduced. So I assume there is some understanding of 
where we are going to be in 2014. And what is that number in 
terms of our troops?
    Secretary Flournoy. I think by the end of 2014, we expect 
Afghans will be in the lead for security. We will be able to 
shift our mission focus more toward advise, assist, training, 
supporting them, continuing to partner with them on 
counterterrorism, intelligence and so forth. This is a lot of 
what we are flushing out in our discussions about an enduring 
strategic partnership.
    The expectation is that the numbers will be substantially 
lower, but I don't think until we know what the state of the 
Taliban is, what the state of the threat, the state of the 
ANSF, it will be hard to predict exactly what those numbers 
will be.
    But we can tell you they are going to be smaller; the 
mission set will become increasingly more focused on supporting 
and enabling the Afghans in the lead across the country.
    Ms. Hanabusa. I saw an interesting chart on the news. For 
example, the number, what the troop strength was in 2008, and 
then after President Obama came into office. And it looked like 
almost a doubling of those numbers, if I remember it correctly. 
So we were like at 30-something thousand, if I am correct, and 
then we went up to 60-something thousand, and we are now up to 
100-something thousand. So we are going to draw down 33,000 by 
the end of next year. And then the question becomes from that 
70,000 that we have left to what you are considering to be not 
as large or whatever it is, what does it look like in terms of 
where we are in relationship to those numbers?
    Secretary Flournoy. Again, I think that we will continue on 
the curve toward 2014.
    The thing that President Obama has said from the beginning 
of this strategy is that this administration will commit to 
periodically reviewing where we are; is the strategy working? 
Is it not? How do we adjust the alignment of resources to that 
strategy, and I would anticipate that regular process of review 
that we have demonstrated over the last 2 years will continue 
through this administration, certainly, and I would hope on 
through to 2014 and beyond.
    Ms. Hanabusa. Under Secretary, if somebody who doesn't 
understand all of this wants to know in plain English, are we 
going to have troops in Afghanistan or are we not going to have 
troops in Afghanistan at the end of 2014, the answer is we are 
going to have troops in Afghanistan; we just don't know how 
many there are going to be?
    Secretary Flournoy. I believe we will have troops with a 
different mission focus and at much reduced numbers supporting 
the Afghans who are going to be able to be leading their own 
security at that time.
    Ms. Hanabusa. But Ms. Under Secretary, the bottom line is 
we are going to have troops with guns who are going to be in 
some way in harm's way, and I think that is what the people are 
really concerned about. So the bottom line, irrespective of 
what their mission or their objective may be, we are going to 
have men and women in uniform who are going to be potentially 
in jeopardy after 2014?
    Secretary Flournoy. Again, I don't want to--that is not--
the President has not decided on the character or numbers of 
our presence beyond 2014. I think it would be unwise for 
someone to try to do that at this point in time, given that a 
lot is going to happen between now and then.
    I am just giving you my personal best judgment that there 
will still be a mission for the United States that will be in 
our interest to support continued counterterrorism operations, 
intelligence and supporting the Afghans as they take the lead 
for security in their own country.
    Ms. Hanabusa. I understand all of that. The bottom-line 
question is very simple. If they are going to be in uniform and 
if they are going to be--they may be in potential of harm's 
way, unless they are somehow protected, which I don't see that 
happening, those who are in Afghanistan would still be men and 
women in uniform, and they still will have potential of being 
injured and potentially killed. Would that be a fair statement?
    Secretary Flournoy. You know, again, I think that we 
anticipate a residual force, but I don't want to put words in 
the President's mouth, that he has not made decisions on the 
nature or composition or character of anything beyond what we 
have announced and beyond 2014.
    Ms. Hanabusa. Thank you. My time is up.
    Mr. Scott. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Admiral Mullen, Madam Secretary, we are certainly grateful 
for both of you and your dedicated service and great leadership 
on a whole host of issues and especially our strategy in 
Afghanistan and appreciate your patience here today. I will try 
to be quick. I know it has been a long morning of questions.
    I first associate myself with Mr. Cooper and his concerns 
and about the impact of what we are doing on Pakistan. I have 
had the privilege to visit our troops in Afghanistan eight 
times and will be back later this time for my ninth, as well as 
visits to Pakistan and the importance of them partnering with 
us and that we don't send the wrong message that they focus on 
the insurgents that they think are a threat to them versus a 
threat more to Afghanistan and to us, that they continue to 
partner with us.
    So I think he raised those issues pretty well, and I 
appreciate your answers on his questions. Probably my overall 
main concern is, I have always said in Iraq and Afghanistan, 
facts on the ground guiding us, it was an important part of 
what the President said in December of 2009 when he laid out 
his plans for the surge, which I commended him for doing, and 
his hope to begin withdrawing this summer, but an important 
caveat was facts on the ground.
    And so I understand where today the ability to say we are 
going to begin drawing up to 10,000 this year, based on the 
facts on the ground today. I am a little concerned that we will 
get ahead of ourselves and say, we already know what the facts 
on the ground are going to be next year so we can draw down 
another 23,000 rather than waiting to see what the facts 
actually are next year and not be premature. So that is 
certainly a concern I have.
    The specific area of questions I want to address is the 
importance of training up the Afghan National Security Forces. 
And I visited with General Caldwell and think he and his team 
are doing an outstanding job and really have transformed that 
training mission in the last year, including the literacy 
aspect, which especially for the police, a key aspect of what 
they are doing.
    Madam Secretary, you talked about the importance of them 
being trained up as part of the calculation in this drawdown 
that we are going to see. I guess, first, I assume you 
calculated that my understanding that we are still seeing about 
a 30 percent attrition level, desertions, that that was 
factored into the numbers, not just that we have this many 
being trained, but we are probably going to lose 30 percent of 
them. Is that an accurate assessment or assumption?
    Secretary Flournoy. Yes. I think our expectations about 
both growth and quality are based on what we have experienced 
to date but also the progress that we are making on bringing 
some of the attrition down, bringing the retention up, 
improving the quality, but importantly, on performance in the 
field, particularly as more and more units are--almost all of 
the units in the south, southwest and so forth are partnered 
with ours, and we are able to get a very good sense of how 
these units are performing in the field.
    Mr. Platts. And that relates to a follow-on question. And I 
guess a concern I have is that we are training them up through 
basics and then, because of the need, we are putting them right 
out there without the additional opportunity to kind of hone 
their skills, and I think that leads to that 30 percent 
desertion or attrition rate. To counter that, we have to 
better--or continue to partner. The fact that there is going to 
be 33,000 fewer U.S. forces there to partner with, isn't that 
going to create somewhat of a challenge? How do we do that 
partnering with that many less U.S. forces for them to be 
partnered with?
    Secretary Flournoy. I think the details of how this affects 
partnering will be worked through, but I don't anticipate a 
significant shortfall in that regard. Part of what we are 
getting as we grow the force is more time to pull units out for 
retraining, more time to send leaders to further development. 
Admiral Mullen mentioned the specialty schools, that we are now 
developing the Afghan National Forces own enablers and 
specialists and so forth. So I think this is all of a piece, 
but I don't think anyone has assessed the drawdown to 
fundamentally put that effort at risk in any way.
    Mr. Platts. I certainly hope not because probably the best 
training we give them is when they are out there in the field 
with the most professional, best qualified, best trained, most 
capable force in the world, that being the American soldier and 
marine, all of our personnel. And that is when we look at the 
numbers and not equate a newly trained Afghan National Security 
Force individual to our military because, obviously, there is a 
huge difference.
    I come back to, as I run out of time, just that my hope is 
the administration, as we get to next year, with that 23,000 
number, that if the facts on the ground are not what we hope 
they will be today come next year, that we don't go forward 
then with that drawdown if the facts don't justify it.
    And a final comment, Mr. Chairman, is, Admiral Mullen, 
again, just what a record of service to this Nation. We as--I 
personally and my family, we are indebted to you and your 
family for your heroic service and wish you great success in 
all you do and thanks for what you have done for all of us.
    I yield back.
    Mr. Scott. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    The President just can't win on this one. It is going to 
have one side saying that you are withdrawing too many troops 
at a time when we need to have them stay the course, and then, 
on the other side, you are going to have folks saying, well, 
look, we are tired of war. Bring the troops home. Osama bin 
Laden has been neutralized. That ends it. Let's close the door 
over there, bring the troops home, and put all of the money 
into reducing our debt. So the President just cannot win.
    There is another way, though. And first of all, Admiral 
Mullen and Secretary Flournoy, I appreciate you all being here 
today. I want everyone to remember that the President was clear 
in his 2008 campaign. He said that he would draw down U.S. 
forces from Iraq, and he pledged to refocus on the neglected 
war in Afghanistan. He has made good on both of those 
commitments. In the spring of 2009, we had 138,000 troops on 
the ground in Iraq. We now have 61,000 on the ground, with more 
leaving every day. And by the end of this year, we will have 
less than 130 Department of Defense boots on the ground in 
Iraq, unless there is some change in the security agreement.
    With the addition of 30,000 troops and renewed focus on 
Afghanistan, we have been successful by all accounts. We have 
degraded insurgent groups. We have denied them territory, while 
neutralizing and disrupting transnational terrorists, who 
continue to threaten us and our allies.
    The President has also made perfectly clear when he pledged 
additional forces to Afghanistan, the 30,000-person surge, 
30,000-troop surge, that he would begin to return those troops 
home in July of this year. Last night, true to form, the 
President made good on that commitment; 10,000 troops by the 
end of this year, and over the next year, approximately 30,000 
troops to return from Afghanistan.
    Now, what would it look like if we left right now, if we 
just decided to close the book on this painful era in our 
history and just--let's close the book on it and let's get 
everybody out of there like we are doing in Iraq and just 
leave? What would the area look like, and what would the future 
look like for Americans? Could we be snug as a bug in the rug 
and think that we don't have to worry about what is being 
fermented in these ungoverned areas? What about Pakistan, a 
nuclear country right next door to India, a nuclear country, 
India having been the victim in the Mumbai attacks of a 
terrorist plot hatched in Afghan--in Pakistan, you know? What 
would we do if we left that area just totally destabilized by 
withdrawing our troops from Afghanistan?
    I submit that it would not look pretty in the long term. We 
would end up having to recommit troops, probably a larger 
number and at a greater expense at a time when we would least 
be able to afford it. And so I regret that we are put into that 
kind of a situation, that that is the situation that we are in. 
I regret that, but that is where we are. And so what do we do 
from here? I think that the President has made the right 
decision. And I would want to bring every soldier home if I 
could right now today but it just would not be the responsible 
thing to do. And so I want to encourage the people to support 
the President. Thank you.
    Mr. Scott. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Mullen, Secretary Flournoy, thank you so much for 
joining us today.
    Admiral Mullen, thank you for your service to our Nation 
and especially to that of your family. I know the sacrifice it 
takes to have a loved one serve this Nation, and we deeply 
appreciate that service and that sacrifice to our Nation. So we 
appreciate that.
    I want to ask this. We have heard a lot about numbers. We 
have heard a lot about timelines. We have heard a lot about the 
generalities of what we have talked about, the COIN strategy 
and continuing along those same lines of effort while we are 
drawing down troops. It seems to me, though, that there is 
another element there that should be as concerning as the 
operations in Afghanistan and that is what is currently 
occurring in Pakistan. And my concern is that we can mount the 
greatest effort in Afghanistan, but if we don't have an equal 
effort in Pakistan, then we are going to not be successful I 
think in where we all want to be in the long run.
    I know that not long ago, General Rodriguez said that even 
if the Pakistanis do nothing more than what they are doing 
today, that we would be okay in Afghanistan. Let me ask this. 
In light of the current conditions in Pakistan with the 
relationship between Pakistan and the United States and with 
the current projection of force drawdown in Afghanistan, do you 
believe that we will still be in, as General Rodriguez says, in 
good shape with our operations in Afghanistan in our efforts to 
defeat the Taliban and ultimately displace Al Qaeda with the 
current situation in Pakistan ending with the proposed 
drawdown?
    Admiral Mullen. I think Pakistan's calculus will depend on 
how things go in Afghanistan. Not completely, but 
significantly. And while, at the same time, they are going 
through an incredibly difficult time right now, not just in the 
relationship with the United States, but also internally, 
particularly their military because of what they have been 
through. And I said before and I would just repeat, the entire 
chain of command of the United States through the President 
thinks it is important that we sustain this relationship, even 
through its most difficult times.
    And I am actually heartened by the fact that we are going 
through a very difficult time, and in fact, the relationship is 
still there. I am just chastened by the past when we said, no, 
when the relationship was broken. So I think we all just have 
to be moderate, frank, careful about how we proceed in this 
relationship, particularly as they go through this 
introspection, if you will, about what has happened to them.
    In the long run, I think it is the region; it is both 
countries. And I think the Pakistan piece of this is a very 
risky part of the overall strategy, which is why we have been 
engaged so long. But it is not just Afghanistan/Pakistan, 
because there is an India piece to this, nuclear armed 
countries, all of that, which gets to the point that should we 
walk away now, I just worry like--I worry a lot that we will be 
back, and it will be much more challenging than it even is now 
and much more dangerous.
    Mr. Wittman. Secretary Flournoy.
    Secretary Flournoy. I would agree wholeheartedly, that we 
really have to look at this region in a very integrated manner, 
and we have to re-invest in the relationship with Pakistan to 
secure the cooperation we need from them on counterterrorism 
but also in helping to reach the goals of stability in 
Afghanistan.
    Mr. Wittman. Let me ask this then. Are either of you or 
both of you confident that we can get to the point where the 
relationship between Pakistan and the United States in relation 
to what we are dealing with in Afghanistan will get us to the 
point where their efforts will be on the level of where we 
believe they need to be. I know, having just travelled there, 
there were many concerns about their current level of effort, 
especially on many of the networks that we are dealing with, 
whether it is the Haqqani network, the Quetta Shura, whatever 
it may be, the concern is, we do our part on one side in 
Afghanistan, and there is safe harbor on the other side in 
Pakistan. Do you see--even in light of the difficult 
relationship that we have right now, do you see us being able 
to get to a point to have an active Pakistan government and 
army combatting the Taliban in their country in a way that 
helps us overall strategically in the region?
    Secretary Flournoy. Yeah, I think Pakistan--as we succeed 
in Afghanistan, I think Pakistan will face some real strategic 
choices in terms of where do they want to end up when this 
comes to a successful conclusion. And I think the real question 
for them is what role will they play politically in helping to 
get to a political endgame in Afghanistan and with 
reconciliation and so forth. I think that is really where their 
key decisions will lie and that will ultimately have a huge 
impact, not only on their relationship with Afghanistan and 
what is on their border, but also in their relationship with us 
long term.
    Mr. Scott. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Thanks for sticking around and helping us out to understand 
the President's announcement last night.
    Admiral Mullen, in your statement you said we are going to 
continue to build a strategic partnership with Afghanistan, one 
based not on a military footprint, but on mutual friendship. 
And I think that we are--if there is something that was lacking 
in the President's speech last night was further defining what 
that relationship is going to look like.
    I wrote a letter to you, Secretary Flournoy, a couple of 
weeks back on this very question about what this transition 
from, as I put it, from troops to trade as a shorthand does in 
fact look like? Because I think we need to maintain a 
substantial commitment to Afghanistan. But I think it is going 
to change and ought to change in nature. And I think most 
Americans want a change in nature. It is not just a matter of 
doing a drawdown. It is a matter of, what does it look like in 
the future?
    And I would be very interested in hearing from you, 
Secretary, and then you, Admiral, about what that relationship 
does in fact look like, what does that strategic partnership 
with Afghanistan look like to send the message to Afghanistan 
that we are not leaving like we did in the 1980s and to the 
American people that we are not staying any longer militarily 
than we need to be?
    Secretary Flournoy. I think that the strategic partnership 
between the United States and Afghanistan will have many, many 
dimensions. One is going to be a very sustained political and 
diplomatic engagement. I think there will be economic 
investment opportunities. The early days of that is already 
being seen in some sectors like the mining sector, the IT 
[information technology] sector, the telecommunications, 
agriculture and so forth.
    I think there will be a security cooperation component that 
will be very important to continuing to press our shared 
counterterrorism interests and to continue to support the 
development of the Afghan National Security Forces over time. 
So I think it will be multidimensional. I think there will be 
people-to-people elements, educational elements and so forth. 
But the key message here is that even as we achieve our 
military goals and the military drawdown is made possible and 
Afghans do take--stand up and take more responsibility for 
their security, we are not going away in a relationship sense. 
We recognize we have vital interests in this region. We have--
the objective of disrupting, dismantling and defeating Al Qaeda 
is one that is not going anywhere, and we are going to stick 
with this, and that means that we are going to stay with the 
partnership in Afghanistan, even as the nature of the means by 
which we do this will change naturally over time.
    Mr. Larsen. Admiral, do you have anything to add?
    Admiral Mullen. Well, it is tied up into this whole idea of 
transition and focused, as the Secretary has pointed out, 
multisector. There are ongoing negotiations right now about the 
aegis of what this strategic agreement would look like from my 
perspective, and I am not involved in those. From my 
perspective, it is talking about the right things, the 
President of the United States and the president of Afghanistan 
are both committed to this. So that will be the framework for 
how this looks. And it is based on the assumption, obviously, 
that we get to a point in 2014 where we have a successful 
transition; they are in charge of their own security; obviously 
our footprint is dramatically reduced; and there is a 
commitment to sort of the long-term relationship. I sum that up 
in friendship, but a long-term relationship that sustains a 
level of stability in that part of the world so that it can 
grow, so that its economy can improve, so that people do have 
comfort in investing in it, and it has an impact, not just in 
Afghanistan but next door in Pakistan.
    Mr. Larsen. I think--honestly, I think the responsible and 
deliberate drawdown can be more deliberate and more 
responsible, meaning I think it can happen faster with more 
folks. But I just don't want us to think that--and I know you 
do not think this. But in talking to folks at home who say, 
well, get out of Afghanistan, the question I always try to push 
back on is, well, if we do that, what do we have left? Have you 
thought about that? Their answer is, well, no, we don't think 
about that.
    Well, we need to be thinking about that; what does that 
look like in the future? I just want to be sure that you are 
all talking about what this looks like in the future, what 
model, you know, of which relationship we have with the current 
country is the Afghanistan-U.S. relationship going to look 
like?
    Secretary Flournoy. We are actively discussing that with 
the Afghans, and as that matures, I am sure we will be coming 
back here to talk with you about that in more detail.
    Mr. Larsen. Thank you, thank you.
    Mr. Scott. We had a hard stop at 12:30. We have two more 
members with questions. I understand our witnesses have agreed 
to stay. I would ask the members to keep it brief, if possible, 
and thank you for agreeing to continue with us another 10 
minutes.
    Mr. Griffin.
    Mr. Griffin. Thank you very much, Mr. Chairman.
    Madam Secretary and Admiral, thank you all for your service 
and thank you for being here. I know you have been here a 
while.
    Just quickly, I want to ask you, looking at Afghanistan and 
the history of Afghanistan and its difficulty in establishing 
central control, a central--a strong central government, what 
changes have you seen over the past few years, if any, in terms 
of the people of Afghanistan willing to accept a strong central 
government and be a part of a one-nation state, if you will? 
Can you comment on that at all? Because I believe that the 
answer to that will--is directly related to our chances of 
success long term in Afghanistan.
    Secretary Flournoy. I do think that Afghans increasingly do 
have a sense of common nationhood. But I think that the 
government that--the level of government that matters to them 
most and where we see them investing greatly, participating 
greatly, holding people accountable is at the local district 
and then, by extension, provincial level. A lot of Afghans 
don't worry too much about what is happening in Kabul. They 
focus on, is my district governor listening to our priorities 
in my community, meeting my basic needs? Are the mechanisms or 
the instruments of government not preying upon me, not being 
predatory, not corrupt, et cetera?
    So I think the first place we have to help them get it 
right is at that local district, provincial level. I think 
working on the national government, we are making progress in 
terms of capacity, countering corruption and so forth. But that 
is a project that is going to take quite some time. But in the 
meantime, the real stability is coming at the local level.
    Mr. Griffin. I would mention that I was in Afghanistan 
about 3 weeks ago and was able to visit not only some of the 
larger areas but some of the larger cities--but was able to go 
and observe firsthand some of the village stabilization 
operations with the Special Forces and was struck by the 
success that they have had at the local level and particularly 
the progress that has been made in the last, I guess, 18 
months, couple of years.
    So I was able to see that firsthand and I was able to 
actually be flown around in a C-130 from my district. And Mac 
Thornberry, who had scheduled the trip, assured me that he did 
not plant that Little Rock-based C-130 there for me, but we 
enjoyed it nonetheless. But thank you all for your time today. 
I appreciate it.
    Mr. Scott. Does the gentleman yield back?
    Mr. Griffin. Yes.
    Mr. Scott. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thanks for staying a few extra minutes. You know, I was 
struck listening to your testimony today.
    Yesterday we actually had a hearing on an update on Iraq 
and the drawdown in Iraq. And again, it was actually amazing to 
hear the story of how we are going to be at about 157 military 
by the end of this year. And having sat through a number of 
those hearings going back to 2007, and Admiral Mullen, you 
know, has just done stellar service in terms of helping guide 
our country through that challenge.
    Again, I guess first of all, I should tip my hat to you 
about the fact that what we heard yesterday was a real amazing 
accomplishment under your leadership, but also struck by the 
fact that when we had hearings on the SOFA agreement [Status of 
Forces Agreement], which really set the glide path down, 
frankly, there was angst in this committee about whether or not 
military advice was sort of being set aside and whether or not 
it was, you know, again, getting too far into a higher margin 
of risk, which you talked about.
    And I guess, you know, this probably is going to be one of 
your final appearances before this committee, and I just wonder 
maybe if you want to share a little perspective about that 
experience. Obviously, you know, these are totally different, 
you know, parts of the world and conflicts. But certainly there 
should be some confidence that we can draw about your success 
in that drawdown and what we are sort of contemplating here 
today.
    Admiral Mullen. What we have a tendency to forget is how 
bad it was in 2006-2007. We were in free fall, from the 
standpoint of our strategy, until the surge in Iraq, and there 
was certainly uncertainty whether even at the time that would 
work. It clearly did turn. A lot of that was external pressure 
from the standpoint of outside forces, but also a lot of it was 
internal.
    It is a different country in so many ways, and we certainly 
understand that. But the overall model, certainly how we 
assisted them and how they developed their forces, et cetera, 
is one that we are trying to follow now. Different forces. This 
is from scratch in Afghanistan; it is a different country. I 
actually believe that, you know, there are--there will be 
limited--we focused in Afghanistan in a limited way on some of 
these ministries, finance, minister of interior, minister of 
defense, not across the whole government, central government of 
Afghanistan, if you will, and I think, the long run, this is a 
decentralized country. How do you make it flow and work? But 
that model is a very powerful model, from my perspective, of 
where we are.
    And I guess the question earlier was, how many are going to 
be left? We don't know. Right now, it is 157. How many are 
going to be left in Afghanistan? It is 157 in Iraq, unless we 
reach some agreement to the contrary, based on what the 
leadership in both countries want to do. We want a strong 
partnership with Iraq for the future, for lots of reasons, and 
I think they are a little more evident now than even they were 
in 2006 and 2007, given the turmoil that is going on in that 
region. We seek the same kind of relationship, strong 
relationship with Afghanistan long term. So, in that regard, it 
is very instructive.
    There are huge differences, and we have got to--we have got 
to take into consideration both the similarities and the 
differences and also acknowledge that in 2006-2007, we were in 
our fourth and fifth year of war, and now it is 5 years later. 
We are in our 10th, and that has got to be integrated into this 
overall decision as well, and I think the President has done 
that.
    Mr. Courtney. And I guess, you know, the deadlines, you 
know, are always, (A), subject to some change, but they also 
help focus, not just our own government but other governments 
as well. And I hope that, you know, would also be one of the, 
you know, just general similarities that will help us get 
through this.
    Admiral Mullen. I think that is true. One of the things 
that happened with the President's speech in 2009, when he 
admit--when said he was going to start bringing troops out this 
July, which he has since made the decision on doing that and 
met that commitment, is it really did energize the Afghans. It 
sent a very strong message that this is not open-ended; you are 
going to have to get up and take care of yourself, which is 
what everybody believed anyway.
    So there is--I have talked about the risks associated with 
this in one way, but there is another side of this that there 
is a potential upside where they know how serious we are. They 
have made a lot of progress. They are going to have to continue 
to improve, from the president down to the local villages that 
we have talked about. And they have made a lot of improvements.
    Mr. Scott. Madam Secretary, Admiral, if you have any 
closing comments, we will be happy to hear them now. I want to 
thank you again for staying past your stop time.
    Secretary Flournoy. I would just like to say thank you for 
hosting us today. I think this dialogue is incredibly important 
to continue this throughout the mission.
    I also want to thank this committee and the members here 
for supporting the members of our Armed Forces and their 
incredibly courageous work but also supporting this mission, 
which I believe is in the vital interest of the United States 
for us to succeed.
    Thank you.
    Admiral Mullen. The committee has been incredible for years 
and years and years supporting our men and women and families, 
and words don't capture what you have done and the impact of 
it. And certainly as someone in my position, I just--I can't 
tell you how much we appreciate all that you do. And we will 
need that continued support in the future.
    Mr. Scott. Admiral, we appreciate all of those warfighters 
and their families and all of those who support them, 
especially you right now. Thank you. We are adjourned.
    [Whereupon, at 12:39 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 23, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 23, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7396.001
    
    [GRAPHIC] [TIFF OMITTED] T7396.002
    
    [GRAPHIC] [TIFF OMITTED] T7396.003
    
    [GRAPHIC] [TIFF OMITTED] T7396.004
    
    [GRAPHIC] [TIFF OMITTED] T7396.005
    
    [GRAPHIC] [TIFF OMITTED] T7396.006
    
    [GRAPHIC] [TIFF OMITTED] T7396.007
    
    [GRAPHIC] [TIFF OMITTED] T7396.008
    
    [GRAPHIC] [TIFF OMITTED] T7396.009
    
    [GRAPHIC] [TIFF OMITTED] T7396.010
    
    [GRAPHIC] [TIFF OMITTED] T7396.011
    
    [GRAPHIC] [TIFF OMITTED] T7396.012
    
    [GRAPHIC] [TIFF OMITTED] T7396.013
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 23, 2011

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MS. SANCHEZ

    Admiral Mullen. The United States started training the Afghan 
National Army in May 2002. The United States Department of State 
contracted with DynCorp International in May 2003 to conduct police 
training. At the time, Germany still had lead responsibility for Afghan 
National Police development. In July 2005, the United States assumed 
responsibility for training and equipping the Afghan National Police. 
The Combined Security Transition Command-Afghanistan (CSTC-A) was 
created in May 2006. The NATO Training Mission-Afghanistan (NTM-A) was 
created on 21 November 2009. Though two separate organizations with a 
common goal and combined staffs of U.S. and Coalition partners, the 
Commander, Combined Security Transition Command-Afghanistan (CSTC-A) is 
also the Commander, NATO Training Mission-Afghanistan.
    Since the NATO Training Mission-Afghanistan (NTM-A) was established 
on 21 November 2009; 190,184 members of the Afghan National Security 
Force (ANSF) have graduated from training courses (as of 20 July 2011). 
As of June 2011, there were 301,672 members of the Afghan National 
Security Force (171,050 members of the Afghan National Army (this 
figure includes the Afghan Air Force), and 130,622 members of the 
Afghan National Police). [See page 17.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT

    Secretary Flournoy. In response to your question about the total 
NATO force, including both U.S. and non-U.S. Coalition personnel, 
serving in Afghanistan, as of May 16, 2011, 132,305 Coalition military 
personnel were serving under NATO command. If you subtract the number 
of U.S. military personnel serving under NATO command, the total non-
U.S. Coalition contribution was 42,305, or an increase of nearly 10,000 
non-U.S. Coalition forces since President Obama announced the U.S. 
surge at West Point in December 2009.
    ISAF routinely publishes a ``placemat'' on its website with the 
total number countries and military personnel participating in the 
Coalition in Afghanistan. That website can be found at http://
www.isaf.nato.int/isaf-placemat-archives.html, and the placemats are 
updated monthly. Attached is the May 16, 2011 placemat referenced 
above. [See page 38.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI

    Secretary Flournoy. The following table provides Operation Enduring 
Freedom (OEF) amounts for the Department of Defense for FY 2011 and FY 
2012. The amounts for OEF mostly support activities in Afghanistan.

                                        Operation Enduring Freedom (OEF)
                                              (Dollars in Billions)
----------------------------------------------------------------------------------------------------------------
                          FY 2011 Enacted       FY 2012 PB Request          FY 2013                FY 2014
----------------------------------------------------------------------------------------------------------------
OEF                    110.0................  107.0................  TBD..................  --
----------------------------------------------------------------------------------------------------------------


    The President's recent announcement of troop drawdown from 
Afghanistan will change the Department's FY 2012 Overseas Contingency 
Operations (OCO) budget requirements for OEF (Operation New Dawn for 
Iraq remains the same), but the exact change will depend on the 
Commanders' determination of the pace of the drawdown and/or adjustment 
of the forces mix.
    The Department is in the process of reformulating its OCO 
requirements for OEF for FY 2012, and developing its OCO funding 
requirements for FY 2013.
    The DoD OCO budget is a bottom-up budget preparation each year, and 
it is configured to support current military strategy, to include troop 
redeployments, and Commander needs on the ground. At this time, the 
Department does not have the information necessary to predict its FY 
2014 OCO requirements, but it is reasonable to expect that the 
President's announcement of troop withdrawals from Afghanistan will 
result in a decrease in OCO requirements for OEF over time. [See page 
31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 23, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Garamendi. You referred to the region where we are fighting as 
the ``epicenter of terrorism in the world,'' noting that this is why 
``the focus on Afghanistan and Pakistan is so important.'' Do you 
believe the terrorist threat is greater in Afghanistan or in Yemen? To 
your understanding, are there more Al Qaeda members in Afghanistan or 
in Yemen?
    Admiral Mullen. We judge Al Qaeda does not have the capability to 
conduct a transnational attack from Afghanistan but continues to 
support the insurgency by sending mid-level leaders and operatives into 
Afghanistan. Al Qaeda's leadership and transnational capability is 
based in the Federally Administrated Tribal Areas, Khyber Pakhtunkhwa, 
Pakistan. However, the group is likely attempting to further develop 
permissive operating areas in Afghanistan into future safehavens from 
which a small Al Qaeda presence could establish limited transnational 
attack capabilities. We judge the sustained counterterrorism pressure 
in Pakistan against Al Qaeda makes it more difficult for the group to 
operate than their counterparts in Yemen. The Pakistan-based Al Qaeda 
leadership continues to lead the larger Al Qaeda movement as well as 
maintain the capability to conducted less-sophisticated transnational 
attacks from the group's safehaven in the Federally Administered Tribal 
Areas. Counterterrorism pressure in Pakistan has significantly degraded 
Al Qaeda's ability to operate--including planning and executing 
transnational plots--whereas Al Qaeda's regional affiliate in Yemen, Al 
Qaeda in the Arabian Peninsula (AQAP), poses a growing transnational 
threat. AQAP members, operating under significantly less 
counterterrorism pressure in Yemen, are likely more capable of planning 
and executing spectacular but smaller scale transnational attacks than 
their counterparts based in Pakistan, as demonstrated by AQAP's 
directed 2009 Christmas Day bomber and 2010 parcel bomb plot. AQAP has 
a larger presence in Yemen than the total number of core Al Qaeda 
members in Afghanistan and Pakistan. However, a smaller proportion of 
AQAP members are focused on supporting transnational attacks; 
conversely Al Qaeda senior leaders maintain the intent to orchestrate 
transnational attacks from the Afghanistan and Pakistan region.
    We expect the conflict in Afghanistan to continue to draw foreign 
fighters from around the world, some of whom, through their contact 
with terrorist networks in the region, likely will be redirected or 
inspired to conduct transnational terrorist attacks. The majority of 
these foreign fighters will travel to the FATA to join a larger 
interconnected network of terrorists, including members of groups such 
as Tehrik-e Taliban Pakistan (TTP), the Islamic Movement of Uzbekistan 
(IMU), Abdallah Azzam Brigades (AAB), and Lashkar-e Tayyiba (LT) before 
traveling into Afghanistan. We assess these groups are under 
significantly less counterterrorism pressure than Al Qaeda. Foreign 
fighters with Afghan battlefield experience and exposure to these 
groups are likely to participate in transnational terrorist attacks. As 
the Western presence in Afghanistan decreases, however, the appeal of 
the jihad in Yemen to foreign extremists will likely increase. We are 
following a trend of operatives increasingly choosing to join Al 
Qaeda's presence in Yemen and we assess western recruits or others can 
be diverted to AQAP's transnational operations program.
    Mr. Garamendi. Counterterrorism experts suggest that the most 
likely terrorist threat may be ``homegrown,'' as we see an increase in 
Al Qaeda followers in the United States. Do you think our presence in 
Afghanistan decreases the homegrown terrorist threat? Might it 
exacerbate that threat?
    Admiral Mullen. [The information is for official use only and is 
retained in the committee files.]
    Mr. Garamendi. Do you believe that maintaining anywhere from 
100,000 to 68,000 troops in Afghanistan over the next three years is 
the most efficient and/or effective way to address the threat of 
international terrorism? If so, why? Are there other strategies that 
might be more efficient or effective?
    Admiral Mullen. Yes. We have seen significant improvement in 
Afghanistan since the President authorized the deployment of surge 
forces. These forces have successfully denied Al Qaeda's ability to use 
Afghanistan as a base to plan terrorist attacks against the United 
States and its allies. Our continued presence in Afghanistan is 
critical to maintaining the improvements of the last few years as we 
transition to Afghan security lead by the end of 2014. We must maintain 
forces at a level that ensures Afghanistan will never again become a 
safe haven for international terrorist organizations. As we draw down 
our forces, our commitment to the development of the Afghanistan 
National Security Forces must be an enduring one. A strong Afghanistan 
will be a key element to the ultimate defeat of Al Qaeda and will 
foster greater regional stability.
    Mr. Garamendi. How much will the Department of Defense spend on the 
war in Afghanistan each year between now and 2014 when we withdraw our 
troops? (Please provide figures for each year.) Based on best 
estimates, how much will this spending contribute to anticipated budget 
deficits each year? Do you see the rising deficit as a problem for our 
national security?
    Admiral Mullen. The President's recent announcement of troop 
drawdown from Afghanistan will change the Department's FY 2012 budget 
requirements for OEF (OND remains the same), but the exact change will 
depend on the Commanders' determination of the pace of the drawdown 
and/or adjustment of the forces mix. The Department is in the process 
of reformulating its OCO requirements for OEF for FY 2012, and 
developing its OCO funding requirements for FY 2013. The DoD OCO budget 
is a bottom-up budget preparation each year and it is configured to 
support current military strategy and Commander needs. At this time, 
the Department does not have the information necessary, e.g., military 
operational plans, to estimate its FY 2014 OCO requirements. Given that 
the Forces in both OEF and OND are being reduced over time, a reduction 
in the OCO request logically follows, and will have a positive impact 
on deficit reduction each successive year. I have stated in numerous 
forums that I believe the debt is a significant issue to our national 
security.
    Mr. Garamendi. When I asked about the cost of the projected 
strategy, you stated that we are ``looking at coming down 30 or 40 
billion a year based on the strategy laid out.'' Based on an unofficial 
Congressional Research Service estimate, drawing down to 25,000 troops 
by the end of 2012 (as I proposed in the attached amendment I 
introduced to the National Defense Authorization Act) would save $35 
billion next year. How do you reconcile the difference between your 
statement that we would save $30-40 billion a year by drawing down to 
68,000 troops in the summer of 2012 and the estimate that we would save 
$35 billion a year by drawing down to 25,000 troops by the end of 2012?
    Admiral Mullen. The $30-40 billion figure was in reference to the 
actual reduction in the OCO request from FY11 to FY12. We reduced the 
total OCO budget by $41B from FY11 to FY12. We have not reviewed the 
CRS estimate you mentioned and we do not have specific savings 
identified for FY12 given that the ISAF Commander is still formulating 
the final withdrawal plan for FY12 and the final details will not be 
available for several months.
    Mr. Garamendi. How many Afghan National Security Force (ANSF) 
members do you expect will be sufficient to ensure a stable Afghan 
state after U.S. forces withdraw in 2014? To ensure long-term 
stability, what average ANSF force levels will need to be maintained 
over a 5-year period (from 2014 to 2019)? Over a ten-year period (from 
2014 to 2024)?
    Admiral Mullen. Long-term planning for the composition of the ANSF 
is currently in its initial stages. We are working with our coalition 
partners and GIRoA [Government of the Islamic Republic of Afghanistan] 
to determine the force structure required to ensure that Afghanistan 
remains secure and stable. Once complete, the ANSF plan of record will 
establish final projected troop levels. The final composition of the 
ANSF will be based on security conditions on the ground.
    Mr. Garamendi. How much will it cost to maintain these ANSF force 
levels over these periods? How will these costs compare to levels of 
revenue that the Afghan government is expected to be able to collect 
over these same time periods? Who will pay for the remaining costs?
    Admiral Mullen. One of the most critical preconditions for Afghans 
to maintain stability and security will be capable, professional Afghan 
National Security Forces (ANSF). The creation of this force allows for 
the gradual withdrawal of U.S. and NATO forces. It is true that support 
for the ANSF will continue to require international assistance for some 
years, however as progress is made, the Afghan Government may be able 
to reduce the size, and therefore cost, of the ANSF to address a 
diminished threat.
    FY12 is the largest Afghan Security Force Fund submission to date, 
and will complete the majority of initial procurement and 
infrastructure development for the ANSF. As this initial stand-up cost 
is paid, the future requests should be less. Specific planning has 
guided the investment and procurement aimed at systems that can be 
maintained and supported by the ANSF and specifically steered away from 
high cost, highly complex systems. This will facilitate a lower long 
term cost. The level of reduction is currently being developed as part 
of the FY13 OCO request. Subsequent assessments will be required each 
year to identify the overall future requirements.
    Mr. Garamendi. Under Secretary Flournoy noted that ANSF troop 
levels will likely be reduced after 2014 because the insurgency will be 
degraded. How many ANSF members do you expect will be discharged? Are 
there concerns that having this many unemployed trained fighters could 
destabilize Afghanistan?
    Admiral Mullen. We do expect to see a reduction in the number of 
personnel in the ANSF after we have completed the transition process in 
2014. The number of personnel that could be discharged from the ANSF 
has not been determined. The long-term plan for the ANSF is currently 
being developed. Once completed, the long-term ANSF plan of record will 
support the conditions on the ground. Our intent is to insure that 
Afghanistan remains secure and stable long after our drawdown is 
complete.
    There are always concerns about unemployed fighters becoming a 
destabilizing factor in Afghanistan. It is important to remember that 
we are currently focusing on professionalization programs for the ANSF. 
Personnel leaving the ANSF after 2014 will most likely be literate and 
possess the required skill sets to become productive members of Afghan 
society.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
